<html>
<title> - SHERWOOD-RANDALL NOMINATION</title>
<body><pre>[Senate Hearing 113-398]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-398
 
                      SHERWOOD-RANDALL NOMINATION 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                   TO

  CONSIDER THE NOMINATION OF ELIZABETH SHERWOOD-RANDALL TO BE DEPUTY 
                          SECRETARY OF ENERGY

                               __________

                             JULY 24, 2014


                       Printed for the use of the
               Committee on Energy and Natural Resources

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

89-786 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                   MARY L. LANDRIEU, Louisiana, Chair

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            DEAN HELLER, Nevada
MARK UDALL, Colorado                 JEFF FLAKE, Arizona
AL FRANKEN, Minnesota                TIM SCOTT, South Carolina
JOE MANCHIN, III, West Virginia      LAMAR ALEXANDER, Tennessee
BRIAN SCHATZ, Hawaii                 ROB PORTMAN, Ohio
MARTIN HEINRICH, New Mexico          JOHN HOEVEN, North Dakota
TAMMY BALDWIN, Wisconsin

                Elizabeth Leoty Craddock, Staff Director
                      Sam E. Fowler, Chief Counsel
              Karen K. Billups, Republican Staff Director
           Patrick J. McCormick III, Republican Chief Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Feinstein, Hon. Dianne, U.S. Senator From California.............     2
Landrieu, Hon. Mary L., U.S. Senator From Louisiana..............     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     5
Scowcroft, Lieutenant General, Brent U.S. Air Force, Retired.....     4
Sherwood-Randall, Elizabeth, Nominee to be the Deputy Secretary 
  of Energy......................................................     7

                                APPENDIX

Responses to additional questions................................    27


                      SHERWOOD-RANDALL NOMINATION

                              ----------                              


                        THURSDAY, JULY 24, 2014

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.

    The committee met, pursuant to notice, at 10:05 a.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, chair, presiding.

         OPENING STATEMENT OF HON. MARY LANDRIEU, U.S. 
                     SENATOR FROM LOUISIANA

    The Chair. Good morning.
    Our committee meets this morning to consider the nomination 
of Dr. Elizabeth Sherwood-Randall, to be Deputy Secretary of 
Energy. We're so pleased to have the Honorable Dianne 
Feinstein, Senator of California, with us this morning and 
General Scowcroft. Thank you so much. It's wonderful to have 
you before our committee.
    Secretary Moniz has said the mission of the Department of 
Energy is to ensure American security and prosperity by 
addressing energy, environmental and nuclear security 
challenges through transformative science and technological 
solutions.
    The Department of Energy promotes energy security and 
prosperity through an all the above energy strategy that 
includes oil, natural gas, coal, nuclear, renewables and 
efficiency.
    It manages our strategic petroleum and home heating oil 
reserves, licenses, natural gas exports and is developing a 
smarter, more efficient, electric grid, more efficient vehicle 
manufacturing and building technologies and cleaner coal and 
safer nuclear technologies.
    It is the largest Federal sponsor of basic research in the 
physical sciences managing 17 national laboratories and 
supporting cutting edge research in physics, chemistry, 
biology, environmental science, mathematics and 
computerizational science.
    It is responsible for maintaining and modernizing the 
Nation's nuclear weapons stockpile, fueling the nuclear navy 
and reducing global nuclear threats while also cleaning up 
radioactive and chemical waste left over from World War II and 
the cold war, no easy task.
    This nominee before us has been nominated to a very 
important position. The Deputy Secretary of Energy plays a key 
role in all of this. The Deputy Secretary is the Department's 
second highest ranking official, who steps in and exercises all 
the power and performs all the functions of the Secretary in 
his absence. This position has traditionally served as the 
Department's Chief Operating Officer and has been often called 
to be the Secretary's Crisis Manager and Problem Solver.
    Dr. Sherwood-Randall appears to be up to this great 
challenge.
    She currently serves as Special Assistant to the President 
and White House Coordinator for Defense Policy, Countering 
Weapons of Mass Destruction and Arms Control.
    She previously served as Special Assistant to the 
President, Senior Director for European Affairs at the National 
Security Council from 2009 to 2013.
    She was Deputy Assistant Secretary of Defense for Russia, 
Ukraine and Eurasia under Secretary William Perry during the 
Clinton Administration.
    She was former Senator Biden's Foreign Affairs and Defense 
Policy Advisor and held post at the Council of Foreign 
Relations.
    She is a Stanford University and Kennedy School at Harvard. 
She's a graduate of Harvard, was a Rhodes Scholar, holds a 
doctorate from Oxford University. Like the outgoing Deputy 
Secretary, Ms. Sherwood-Randall brings a stellar background in 
nuclear weapons, non-proliferation, international affairs to 
the Department.
    I might say, a wonderfully generous and genuine attitude to 
this really big job and a very humbling demeanor.
    I'm pleased to welcome you, Dr. Sherwood-Randall, to the 
committee this morning. I look forward to hearing from you. 
Before we do I'd like to turn it over to Senator Feinstein and 
then to General Scowcroft.

       STATEMENT OF HON. DIANNE FEINSTEIN, U.S. SENATOR 
                        FROM CALIFORNIA

    Senator Feinstein. Thank you very much, Madame Chairman.
    I feel very privileged to be able to be before you, 
particularly, because of the stellar credentials and friendship 
of the woman on my left. As you so well stated, she is slated 
to become the Deputy Secretary of the Energy Department.
    Sitting on her left, General Scowcroft co-chairs the Aspen 
Strategy Group, to which both Liz and I belong. So I have had 
ample opportunity to observe her, to meet her family and to see 
that she is really so well founded, I think, with a very 
special and privileged background. You gave some of it.
    I just--let me just for a moment fill in some of the things 
you may not have said.
    Early on she had a Bachelor's Degree from Harvard. You 
mentioned she was a Rhodes Scholar. She received a Doctorate in 
International Relations from Oxford.
    From 1986 to 1987 and she looks so young, this is the 
thing. From 1986 to 1987 she served right here in the Senate as 
Chief Foreign Affairs and Defense Policy Advisor to our then 
colleague, Joe Biden.
    She then returned to academia. She served at Harvard as a 
co-founder and associate director of the Strengthening 
Democratic Institution's project at the Kennedy School.
    In 1994 she came back to public service, was brought back 
by then Secretary of Defense, Bill Perry, to serve in President 
Clinton's Administration as Deputy Assistant Secretary of 
Defense for Russia, the Ukraine and Eurasia. In this capacity 
she was responsible for persuading 3 new nuclear Nations, 
namely Belarus, Kazakhstan and the Ukraine to give up their 
nuclear warheads and join the Nuclear Non-Proliferation Treaty. 
They did. The world is a safer place as a result.
    From there she went on to spend the next decade in academia 
expanding her expertise on national security, the proliferation 
of weapons of mass destruction, Europe, NATO and more.
    From 1997 to 2008 she was a founding principle in the 
Harvard Stanford Preventive Defense Project. Then she was also 
a Stanford University Senior Research Scholar.
    Now your items come in later in her history, but I look 
over and I don't see a 100 year old woman.
    [Laughter.]
    Senator Feinstein. Which is really quite amazing.
    As you know I Chair the Energy and Water portfolio of the 
committee that you Chair and Senator Murkowski is Ranking 
Member on with respect to energy. So I handle the money.
    We have one big problem. That is that the defense part of 
our portfolio which is walled off from everything else, the 
Army Corps of Engineers, the Energy Department, the Office of 
Science and all of those things is becoming more and more 
constrained because of the expanding nuclear and non-
proliferation part of the portfolio.
    As you well know, there are plans to retire certain nuclear 
weapons, but I think this national security part, the current 
Secretary of Energy is very well steeped in the Energy area and 
the Science, Technology part of that. This is the balance here, 
someone who is well steeped in the other part of the portfolio 
which money wise is expanding and taking over the non-defense 
part of our portfolio.
    It is a problem. We need to solve it. So I really look 
forward to working with her.
    I hope the 2 of you will join us because I think we both, 
the Army Corps, really is our infrastructure part of Federal 
Government and the Office of Science is often where ARPA, the 
new experiments come from. So to keep these in balance is a 
real effort. I look forward, if I may say, Madame Deputy 
Secretary, or as I know you, Liz, this is a very serious thing 
that we keep this balance.
    So I hope that the 3 of us here and including my ranking 
member that I work closely with, Lamar Alexander, can sit down 
with you and have some conversations on where long term we go 
in terms of this balance because as you authorize and we try 
and appropriate. It becomes a bigger and bigger problem.
    So I think you're the one to handle it. You are well 
steeped in defense technology. You're well steeped in nuclear 
non-proliferation. You're well steeped in nuclear weapons and 
their warheads.
    So I just want to say that you have before you an amazing 
American woman. I'm just very pleased to support her and help 
present her to you.
    We have another distinguished General also, I think, to do 
exactly the same thing.
    The Chair. Thank you, Senator. Thank you for your 
leadership.
    You are absolutely correct and right on in your call to us 
to really focus on this really serious issue both from an 
authorizing standpoint, but truly from an appropriations 
standpoint. As you know, I serve on the committee with you on 
Approps and it is very troubling to see the amount of money 
that is required to complete the direction that this committee 
and others have given and the crowding out that's happening to 
the Corps of Engineers with for Alaska and Louisiana and 
California is a serious infrastructure agency that just is 
starved of funding to keep our ports open, our, you know, our 
energy ports, our cargo ports at a time with global, you know, 
trade expanding.
    So this is a real challenge. So, Ms. Sherwood-Randall, I 
hope you're up to it. I think you are. Your credentials most 
certainly suggest that you are. We'll have more questions to 
you in just a moment.
    Senator Feinstein. May I just say one more thing?
    The Chair. Yes, go right ahead.
    Senator Feinstein. Since I have the 2 of you here.
    Since, as you know, Senator Landrieu, Senator Murkowski and 
I and Senator Alexander and Jeff Bingaman and Ron Wyden, then, 
we work closely to come up with a nuclear waste policy. I'm 
very pleased that you've had now an opportunity to review it.
    Senator Murkowski and I think very much alike in terms of 
the design of this. I want you to know that. She knows that we 
lose $20 billion a year because we don't have it and we become 
responsible for it. We've got nuclear waste piling up all over 
this country.
    So this might be a good thing to be able to involve this 
new Deputy Secretary closely in it. Hopefully we can get 
something done.
    The Chair. An easy thing to get her started with.
    [Laughter.]
    Senator Feinstein. Thank you.
    The Chair. OK.
    General Scowcroft.

   STATEMENT OF LIEUTENANT GENERAL BRENT SCOWCROFT, U.S. AIR 
                         FORCE, RETIRED

    General Scowcroft. Thank you very much, Madame Chairman. 
It's a great privilege for me to be here and speak on behalf of 
Elizabeth Sherwood-Randall and to follow a person I admire 
immensely and that is, Senator Feinstein.
    I'm going to talk about the personal aspects of the 
candidate because you've heard much of the detail of an 
illustrious career.
    I've known Elizabeth Sherwood-Randall for almost 2 decades. 
She has sought my counsel over these years and I've watched her 
up close as she has worked to serve the national interest and 
establish her credentials for further progress in that regard. 
She has dedicated herself to public service and earned the 
trust and confidence, not only of colleagues like myself, but 
of a number of Cabinet Secretaries and of the President 
himself.
    Liz has contacted me frequently during her period of 
service at the White House where she's had broad 
responsibilities for our key alliances of Europe, our defense 
policy and budget and our efforts to counter weapons of mass 
destruction proliferation.
    I'd like to make 3 general points about Liz.
    Her proven capabilities as a leader and manager, her non-
partisan approach to issues and her dedication to service.
    The National Security Team has a task of leading and 
managing the U.S. Government to develop national strategy and 
policy and then hold agencies accountable for effective 
implementation. The President has, over the years, asked Liz to 
take on some exceptionally tough challenges. I've watched her 
deliver results that make America stronger and more secure.
    Most recently Liz was the President's Sherpa for nuclear--
for the nuclear safety summit, a landmark initiative to lock 
down plutonium and highly enriched uranium around the world 
helping to prevent terrorists from getting their hands on 
nuclear materials.
    She was also in charge of the complex process of getting 
more than 1,000 tons of chemical weapons out of Syria which was 
achieved just a few weeks ago.
    She knows how to get hard things done. That is certainly 
what is needed in a Deputy Secretary of Energy.
    I would also note that in her current capacity Liz has been 
involved in guiding key aspects of the Department of Energy's 
work covering nuclear and non-proliferation issues. She has 
extensive experience working with the Department of Defense as 
well which has, of course, is essential given the shared 
responsibility between DOE and DOD for the nuclear weapons 
enterprise. I know she is deeply committed to ensuring that it 
has the resources it needs to support the vital deterrence 
mission.
    As I noted Liz has sought me out to discuss a wide range of 
issues over the years. I have found her open minded and 
interested in alternative viewpoints. She's a careful listener.
    I'm confident she will reach out to you to understand the 
full story and to hear diverse perspectives. That that will 
help ensure that policies are developed with the support of 
Congress which, of course, is essential to addressing the 
challenges in this area that we face as a nation. They are 
serious.
    Liz and I have spoken frequently about what it takes to 
advise a President on the toughest issues. She approaches her 
mission duties with humility and seriousness of purpose. I 
commend her to you as a person who puts public interest before 
self-interest. Who will, unequivocally, serve our Nation with 
integrity and distinction.
    Thank you.
    The Chair. Thank you for that beautiful statement on our 
nominee's behalf. Thank you for your extraordinary service to 
our Nation, General. We're very, very honored to have you 
today. Thank you so much for what you've done.
    General Scowcroft. Thank you very much.
    The Chair. Let me recognize my ranking member at this time 
for her opening statement. Then we will proceed.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Madame Chairman.
    I think it's important to note that this morning we not 
only have the nominee here to be the Deputy Secretary of Energy 
and whose background clearly has been focused in nuclear. But 
General Scowcroft has been, I think, very instrumental as we 
have helped or as we have worked together to try to come 
forward with a proposal as to how we deal with our nuclear 
waste.
    Senator Feinstein mentioned the efforts that this small 
group of us has had over the course of several years. Now 
looking forward to working with you, Madame Chairman and how we 
advance that. So I think Dr. Sherwood-Randall, you're on notice 
here this morning that this is a key interest to many of us, 
not only here on the committee, but really from a broader 
perspective here within the Senate.
    It is, I think, quite significant that you have been 
introduced this morning in quite glowing terms from such 
prestigious individuals as General Scowcroft and of course, the 
leadership as demonstrated by Senator Feinstein over the years.
    I do think it is good, Madame Chairman, that we have been 
able to schedule this hearing this morning to consider the 
nomination for Deputy Secretary of Energy. This is the No. 2 
position within the Department.
    Dr. Sherwood-Randall, welcome before the committee. I 
appreciate not only your willingness to serve but to serve in a 
new place, a new capacity. I enjoyed our visit where we were 
able to sit down.
    I'm certainly very impressed by your qualifications. Your 
background at Brookings, the Department of Defense, Council on 
Foreign Relations, as has been mentioned by others, are quite 
significant and impressive and now working on some very 
difficult issues as a senior member of the National Security 
Council. So I'll repeat the question that I asked when we were 
visiting in my office is why pick the Department of Energy for 
your next stop? But I will say that I am glad that you have, 
particularly with our current Deputy Secretary Poneman 
departing this fall.
    We don't often discuss the nuclear side of DOE in this 
committee, but it is clearly, clearly, a critical and important 
part of the Department's mission. I think with your expertise 
on nuclear security and non-proliferation that this can be an 
asset to us on the committee. If we can confirm you in a timely 
manner I would like to think that we've got a seamless 
transition in front of us.
    But a couple things have to happen in order for that to 
happen.
    First, you need to do well here this morning and provide 
substantive answers to our questions, outlining the direction 
that you believe that the Department should take as well as 
your substantive views on important issues such as energy 
exports.
    But second and perhaps a little more complicated for you 
because you can't necessarily control that and that is you're 
going to need to navigate a Floor process that has not been 
very kind to our DOE nominees. Our committee has reported seven 
nominees for DOE who are still pending on the Executive 
calendar. They're yet to be considered or confirmed.
    Some were reported out of this committee as far back as 
January. By my count only one individual has actually been 
confirmed to DOE this year. We recently saw a nominee withdraw 
after she decided that it just wasn't worth the wait.
    But it clearly doesn't have to be that way. The majority 
can bring up any nomination for consideration at any time. We 
saw that with 2 recent FERC nominees. They barely spent a week 
or so waiting.
    We certainly cleared a lot of judges this year and a lot of 
officials for other agencies and departments. So, perhaps we 
can maybe take a little breather from that and focus on DOE for 
a change. I think that Secretary Moniz needs to have a full 
team around him. I want to help support him in that.
    So Dr. Sherwood-Randall, I'm hopeful that you will persuade 
us here this morning that you are the right person to take over 
as Deputy Secretary. You certainly have impressed me. When it 
comes to the Senate Floor I'm also hopeful that we'll see some 
effort to confirm those who are willing to serve there at the 
Department of Energy.
    With that, we'll look forward to your responses.
    Again, thank you for joining us this morning and your 
willingness to serve.
    The Chair. Thank you, Senator.
    The rules of this committee which apply to all nominees 
require that you be sworn in with your testimony. So if you 
please stand and raise your right hand.
    Do you solemnly swear the testimony you're about to give 
the committee, this committee, on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    Ms. Sherwood-Randall.. I do, Senator.
    The Chair. Before you begin your statement, you may be 
seated.
    Before you begin your statement I will ask 3 questions that 
we address to each of the nominees.
    Will you be available to appear before this committee and 
other congression committees to represent Departmental 
positions and respond to issues of concern to Congress?
    Ms. Sherwood-Randall.. I will.
    The Chair. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict of 
interest or create the appearance of such a conflict should you 
be confirmed and assume the office to which you've been 
nominated by the President?
    Ms. Sherwood-Randall.. I am not.
    The Chair. Are you involved or do you have any assets held 
in a blind trust?
    Ms. Sherwood-Randall.. No, I do not.
    The Chair. OK. Thank you very much.
    You're now recognized to make your statement. I hope you 
will begin by introducing the faces behind you that have been 
beaming for the last 35 minutes.
    Thank you and please begin.
    [Laughter.]

  TESTIMONY OF ELIZABETH SHERWOOD-RANDALL, NOMINEE TO BE THE 
                   DEPUTY SECRETARY OF ENERGY

    Ms. Sherwood-Randall. Thank you.
    I will begin Chair Landrieu and Ranking Member Murkowski, 
members of the committee by thanking you for this opportunity 
to appear before you as the President's nominee to be Deputy 
Secretary of Energy. I am honored to be here and want to 
express my appreciation to you, to you, Senator Scott and other 
members of the committee not yet here this morning, who've 
taken time to meet with me over the past few weeks.
    I'd like to begin by thanking President Obama for nominated 
me to serve in this significant position in the Department of 
Energy, a department whose mission is crucial to a strong 
economy and to our national security.
    I appreciate the confidence that Secretary Moniz and Deputy 
Secretary Poneman have shown in me.
    I incredibly grateful and humbled by the introductions by 
Senator Feinstein and General Scowcroft from whom I have 
learned so much over the years and to whom I continue to turn 
for wise counsel. They have set the gold standard in their 
decades long public service to our Nation.
    It is my great pleasure to introduce to you the members of 
my family, most of whom have traveled from California to be 
here today.
    First, my mother, Dorothy Sherwood, the matriarch of our 
family.
    My husband, Jeff Randall.
    My 2 sons, Richard and William.
    My brother, Ben Sherwood and my young nephew, Will 
Sherwood.
    The Chair. Will, can you stand up so I can see you over 
that big chair.
    [Laughter.]
    Ms. Sherwood-Randall. Will is 9 years old.
    The Chair. Yes, thank you.
    Thank you all for being here this morning.
    Ms. Sherwood-Randall. Today would have been my late 
father's 86th birthday and I know that he would have relished 
these proceedings this morning.
    My family has made what I do possible. I am indebted to 
them for generously supporting me and for their enduring love.
    I particularly want to thank, Jeff, for being all in since 
2009 as he has commuted from his busy Bay area neurosurgery 
practice to enable me to serve in government. should I be 
confirmed he will be signing up for more overnight flights to 
Washington.
    I have been dedicated to public service for most of my life 
having been guided by parents, whose values and actions 
reflected deep patriotism. They raised us to honor all that 
America makes possible by giving back all that we can to 
family, to community and to country. They relentlessly 
emphasized education as the door to opportunity and urged us to 
use the opportunities that we earned to make a difference. They 
taught us that public service is a high calling to which we 
should aspire.
    My first opportunity to serve was as a high school intern 
in the Senate in the summer of 1976 when I worked as a 
Legislative Correspondent for Senator Tunney from California.
    After finishing my education I went to work for Senator Joe 
Biden, as you heard earlier. I learned firsthand about the 
important work of the committees and the senators who serve on 
them.
    I have been privileged to serve the national interest 
across the decades in the executive and legislative branches at 
universities and in think tanks. My commitment and focus in 
each of those roles has been to making America strong and safe 
by improving our defense capabilities, building vibrant and 
durable alliances that are force multipliers for American power 
and preventing the emergence of new threats that would hold at 
risk the freedoms and security that we cherish most.
    Over the past five and a half years I have had the 
opportunity to help lead the Obama Administration's efforts on 
a wide range of complex challenges facing our Nation. Many have 
involved missions connected to the Department of Energy's 
portfolio including ensuring the safety, security and 
effectiveness of our nuclear arsenal and the vitality of the 
national laboratories and production facilities that support 
that effort.
    This also included developing and implementing innovative 
strategies to counter the dangers associated with the 
proliferation of weapons of mass destruction, materials and 
capabilities and the continuing desire of terrorist groups to 
seek access to them.
    As was noted previously, it has included supervising the 
fulfillment of the unprecedented agreement to get 13 hundred 
tons of chemical weapons out of Syria this year.
    This will answer Senator Murkowski's question to me, I 
think. Why DOE?
    Along with our uniquely capable military our energy 
resources will be an essential source of our strength in the 
21st century especially given the changing global energy 
landscape. The revolution in American oil and natural gas 
production is helping fuel our economic growth and enhance our 
energy security. At the same time energy innovation drives our 
economic competitiveness and positions us to continue to lead 
the world.
    If approved by this committee and confirmed by the Senate, 
I commit to working closely with Congress to advance the key 
lines of effort that reflect the priorities previously 
described to you by Secretary Moniz. Specifically I will:
    Advance the all of the above strategy for America's energy 
future including the President's climate action plan.
    Champion our international energy leadership including 
support to allies and partners.
    Manage the U.S. nuclear enterprise to ensure that it 
remains safe and secure, continues to deliver effective 
deterrents and counters proliferation and nuclear terrorism.
    Work with our national labs, universities and the private 
sector to support key generators of scientific and 
technological innovation.
    Offer cutting edge solutions to the American people.
    Strengthen the Energy Department's program and project 
management across the enterprise to deliver results and value 
for the American taxpayer.
    These are tough challenges and solutions will be neither 
easy nor quick. They will take time and ingenuity as well as 
forceful leadership and management. In most cases they will 
require our steady attention long beyond this Administration.
    That is why, if confirmed, I would seek to build bipartisan 
approaches that put us on a sustainable path toward meeting 
these critical goals.
    Earlier in my career I lived in New Mexico and often 
reflected on the courage and dedication of the brilliant 
scientists who came together at Los Alamos in the dark days of 
the Second World War harnessing the power of the atom to 
counter the gravest danger to democracy and freedom. They met 
the challenge of their times.
    Today, so must we.
    Inspired by their example I hold fast to the wisdom of 
former Secretary of Defense Bill Perry, who says that the 
hardest problems are the ones that are most worth working on.
    If confirmed, I commit to giving these exceedingly hard 
problems my all and to doing everything in my power to deliver 
the strong economy and safe future that our children and 
grandchildren deserve.
    Again, thank you so much for consideration of my 
nomination. I look forward to answering your questions.
    The Chair. Thank you for that beautiful presentation this 
morning.
    I can assure you that Senator Murkowski and I hold those 
values dearly as well from big, large and loving families and 
parents, who have served many decades in public life. We also 
believe that our committee has a key role to play in the growth 
of this economy and the security of our Nation. We talk about 
it every day. We're really trying to pay, you know, find a path 
forward in this very difficult and contentious political time.
    So let me begin by just asking you a question that is 
before the committee now.
    Earlier this year the Administration proposed placing the 
mixed oxide fuel fabrication and coal standby while it 
reevaluates other options for disposing of the plutonium from 
surplus nuclear warheads. As you know the United States is 
obligated under an agreement with Russia to dispose of 34 
metric tons of plutonium by irradiating it in nuclear reactor. 
This--the alternative, burying it, in waste isolation pilot 
plan or in deep war holes would require us to obtain approval 
from the Russians.
    They have recently and I think just in the last 2 weeks 
signaled they might be willing to agree to a change, but in 
return we would have to let them repudiate their agreement not 
to reprocess civilian spent fuel allowing them to produce still 
more plutonium into abandoned international monitoring. That 
would not sit well with this chairman nor many members of my 
committee or the Congress.
    So in your view, with national security arms control issues 
do you believe we can afford to pay the price Russians will 
demand to let us abandon our MO<INF>X</INF> project?
    Ms. Sherwood-Randall. Thank you so much, Senator, for 
giving the opportunity to discuss this very important issue 
with you this morning. Senator Scott and I had the chance to 
discuss it as well in his office.
    We are fully committed to meeting the obligations that we 
have under the agreement reached with Russia. This is a vital 
national interest to the United States. As you heard from 
Senator Feinstein and from General Scowcroft, non-proliferation 
has been a central focus for me. Keeping the Russians on track 
to deliver on their end of the commitment is a priority goal 
for this Administration.
    The technical liability of the MOX approach is not in 
question. The only reason that the question has been raised 
about how to proceed is because of the challenges to the 
funding stream for MO<INF>X</INF>. The requirement that we have 
is to be responsible stewards of the taxpayer dollar. That's 
shared between the executive and legislative branches.
    The Secretary of Energy has asked the question can we do 
this project with the money that is available to us in a budget 
constrained environment? Is there any other way it could be 
done meeting the obligations we have and keeping the Russians 
invested in it as well that would be a more effective use of 
the taxpayer dollar for the disposal of this plutonium?
    Again, we are fully committed to getting the job done. The 
only question is how to do it most economically.
    If there is funding for this project that is sustainable 
over time, this is our preferred solution. My understanding of 
the facts involving the discussions that have been ongoing with 
the Russians on a wide range of nuclear security issues such as 
this one is that we are on track and that there is no 
discussion about welching on agreements.
    So we continue to work hard to ensure that that element of 
our cooperation with Russia is insulated from some of the 
turbulence in other aspects of the relationship because this 
is, to put it simply, defense by other means for us. We want to 
ensure that that plutonium is disposed of so that it can never 
get into the wrong hands and be used against the American 
people.
    The Chair. Thank you for making that very clear. I think 
your statement was crystal clear that the technology is your 
preferred technology. The process is your preferred, but it's 
really an issue of funding.
    Ms. Sherwood-Randall. Right.
    The Chair. So it's up to the members of this committee and 
the Appropriations Committee to solve the funding problem if we 
want to help you solve this problem that we share together or 
this challenge.
    Thank you for making that clear.
    Let me ask you about clarifying the spent fuel standard. Do 
you support the current spent fuel standard and does waste 
isolation pilot plant meet that standard?
    Am I asking you the question?
    Ms. Sherwood-Randall. Could you clarify the question for 
me?
    The Chair. OK.
    Do you support the so-called spent fuel standard which 
requires the plutonium from weapons to be disposed of in such a 
way that it is absolutely inaccessible as the plutonium 
embedded in un-reprocessed civilian spent fuel?
    Ms. Sherwood-Randall. So, Senator, I think I need to take 
that question for the record. Thank you.
    The Chair. OK.
    I'll go to the next one.
    For the first time in 2 decades the United States is 
producing more oil than it imports. We're producing more 
natural gas than ever. That is exciting.
    I think in many, many aspects, in fact, the industry is 
estimating and the Department, as you know, has estimated 200 
years of a supply of natural gas which is a game changer from 
an economic standpoint and a national security standpoint.
    What are your views about the opportunity for exports for 
the oil that we are producing here that we're unable to 
economically use in our refineries because they're just built 
to hold different kinds, a different type of oil? What are the 
benefits, do you believe, of appropriate exports for gas?
    Ms. Sherwood-Randall. Thank you, Senator.
    As I noted this revolution in our oil and gas development 
is a major engine for our economic growth, both at home and 
also around the world. My understanding, based on the briefings 
I have received thus far, is that the Department of Energy does 
not have purview over decisions on oil exports. That is a 
Department of Commerce issue.
    On the issue of liquefied natural gas exports, as you know, 
there is a public interest determination in the Natural Gas Act 
that requires a very careful review of whether exports would be 
beneficial to the public interest. There are a number of 
factors that are looked at. The Department of Energy has 
recently given conditional approval to 6 proposals for export 
and final approval for one proposal for export and continues to 
review additional proposals. Indeed has made a recent proposed 
amendment to the process for the review of these exports in 
order to expedite those that would be most ready to bring to 
market.
    So my understanding is that going forward, were I to be 
confirmed for this job, this possibility of bringing LNG to the 
export market would be something that I would be involved in 
and look forward to working with you closely on.
    The Chair. Just one statement. I'll turn to my ranking 
member and thank the other members for attending. We'll get to 
their questions in a minute.
    You know, the Natural Gas Act was passed at a time when 
America was debating or trying to find the right way forward 
managing a scarcity of supply. Those rules were written at a 
completely different time with a completely different outlook.
    So while we do have to follow the law considering the 
enormous change that has occurred between 1972 and 2014, it is 
really time to revisit that law. This committee is revisiting 
it right now. We think that the world looks very different from 
this seat today than it did in 1972.
    So that is under, you know, debate right here. We're 
looking for action quite soon.
    Senator Murkowski.
    Senator Murkowski. Thank you, Madame Chairman.
    I would certainly concur with the chairman in terms of the 
imperative. I think that many of us feel that we have an 
opportunity that is in front of us now with our abundant energy 
resources whether it is oil, whether it is natural gas.
    I appreciate your acknowledgement that energy is truly a 
source of not only energy security, but national security. That 
this nexus here is what propels you to make this next step and 
accept this nomination that is in front of you today. 
Recognizing that we have an opportunity to not only help our 
friends and our allies, as you have suggested, but also help 
our country from an economic perspective, from a jobs 
perspective and really from a perspective of greater self-
reliance here.
    I do think it takes us right back to the chairman's point 
about our opportunities with our oil and most clearly our 
natural gas. You've mentioned the process that has been 
underway at DOE with the licensing and the changes to help 
expedite it.
    What I would like from you this morning is a commitment to 
us that you will work with us here in the Senate to do 
everything possible, certainly within the bounds and propriety 
of the law, to avoid delays as DOE moves forward and finalizes 
these--this licensing process and continues to approve the LNG 
export applications.
    So what I'm trying to do is make sure that we move forward 
with this process not take these pauses or time outs which I 
think will limit our ability to utilize our energy resources, 
not only to our strategic advantage, but to our energy security 
advantage here.
    Ms. Sherwood-Randall. Senator, I can commit to you that, if 
confirmed, I will work closely with you and members of the 
committee to ensure that there are no untoured delays in review 
of proposals for export of LNG.
    Senator Murkowski. Would you agree that we have a limited 
timeframe here or a window of opportunity? If we don't build 
out our LNG export capacity in a timely fashion the rest of the 
world and those who have these resources, they're not just 
sitting back and waiting for the United States.
    Would you agree that this is an issue where there is an 
urgency to it? There is a consideration of timeliness?
    Ms. Sherwood-Randall. Senator, I believe it is a very 
competitive environment. I believe we have an opportunity to 
lead in it.
    Senator Murkowski. I concur.
    Let me ask you a question about WIPP. Earlier this week I 
sent a letter to Secretary Moniz and I was inquiring about some 
of the recent incidences there at DOE's waste isolation pilot 
project regarding the underground fire. Then there was an 
unrelated radiological release. Pretty alarming certainly, as I 
read those accounts.
    Would you be involved in overseeing the investigation and 
ongoing remedial activities there at WIPP?
    Ms. Sherwood-Randall. Senator, thank you for giving me an 
opportunity to talk about WIPP because it is such an important 
part of our overall ability to continue the responsibility we 
have to dispose safely of our nuclear waste. It is our first 
operating repository. So it is very important to us that it be 
operational.
    The investigation of what happened this year at WIPP is 
underway. Of course, I don't know exactly when I will be 
confirmed.
    Senator Murkowski. Right.
    Ms. Sherwood-Randall. But if I am confirmed and it is in a 
timely fashion I would have responsibility and support of the 
Secretary for the investigation, for the recovery and reopening 
process for the WIPP facility.
    Then I'd say, most importantly for the work we need to do 
going forward, in terms of the long term project of identifying 
appropriate ways to dispose of our high level waste. It's the 
lessons to be learned.
    One of the signature elements of the work that I do and 
have done for many years is to take the time to review what 
lessons can be learned from failure and to apply them going 
forward so that we can be stronger as we develop new solutions 
to complex problems.
    Senator Murkowski. Madame Chairman, this issue along with 
others, but this issue is clearly very timely. When we think 
about these nominees and the responsibilities that you will 
have, if confirmed, we have Deputy Secretary Poneman, who is 
leaving.
    Ms. Sherwood-Randall. Yes.
    Senator Murkowski. Who is involved with this. We need this 
investigation to go forward. We need to have these ongoing 
remedial actions.
    So making sure that there is that transition from one to 
another, I think, particularly with this incident there at WIPP 
is key.
    One last question for you and this regards electric 
reliability, something that I'm quite concerned about and 
following very intently.
    Do you support GAO's recommendation for a formal documented 
process between DOE, FERC and EPA to interact with respect to 
the impact of the EPA rules on reliability?
    GAO has come out with this recommendation.
    Ms. Sherwood-Randall. I'm sorry. I am not aware of the GAO 
report. I am aware of work that is underway on reliability at 
the Department of Energy which has been stimulated by a series 
of experiences including, for example, Hurricane Sandy, the 
Metcalfe incident and others where it has become evident that 
more effort needs to be applied to ensuring reliability of the 
grid.
    That's actually an element of the Quadrennial Defense 
Energy Review, Quadrennial Energy Review, that the Department 
will be presenting in early 2015. Work is underway on that 
already.
    So let me just say that I will be glad to take, for the 
record, the question on the GAO report which I'm not aware of.
    Senator Murkowski. Well just know that this committee 
follows that very, very closely. Many of us think that we do 
need to look critically at how all of these agencies interact 
then with this EPA rule.
    Thank you, Ms. Sherwood-Randall.
    Ms. Sherwood-Randall. Thank you.
    The Chair. Senator Scott.
    Senator Scott. Thank you, Madame Chairman.
    Dr. Sherwood-Randall, good to see you again.
    Ms. Sherwood-Randall. Good morning.
    Senator Scott. I enjoyed our meeting. I thought it was 
fascinating. Appreciate you taking the time to come before this 
committee and giving us an opportunity to continue to flush out 
one of the more important issues from our perspective, at 
least, South Carolina, the MO<INF>X</INF> facility.
    We don't, however, see the facility as a South Carolina 
centric issue. We really do see it as a national security issue 
that provides us with an opportunity to continue to move 
forward in good faith with our Russian counterparts.
    The real challenge that I have had great concerns with from 
this Administration is that it seems like the path that they're 
on allows for the Russians to hold on to the plutonium that has 
the equivalent value of about 17,000 warheads. I say that 
because when we asked a question or when the question was asked 
by the Chairwoman about our commitment to the MO<INF>X</INF> 
facility the question--your answer included funding. We must 
make sure that the funding is there.
    But I went back over the last couple months. We realize 
that the coal standby that the facility was put on was because 
Congress approved more money than the Administration actually 
asked for. So the Administration decided to use some of the 
resources, it appears to me, to put the facility on standby, 
coal standby, while they looked for other alternatives.
    Congress had to come back and encourage the Administration 
to continue moving forward. Dr. Moniz called me and said that 
we were going to go ahead and move forward and not put it on 
coal standby as they had suggested previously.
    So my thought is that it's good news if in fact, the real 
issue is the challenge of the funding stream. But it does 
appear to me that the real challenge is the commitment to the 
MO<INF>X</INF> facility and not the funding stream itself.
    I'd love to hear your thoughts on that. I'll give you a 
compound question here. Your comments at a March 17th, Council 
of Foreign Relations event, to me, suggested that not a 
commitment, a lack of a commitment to MO<INF>X</INF> as the 
only alternative according to the PMDA agreement.
    Your comments were that perhaps there was another mode of 
disposition that can be acceptable to the agreement.
    On April the 9th, Dr. Moniz testified that MO<INF>X</INF> 
is required under the PMDA and that was done during a Defense 
Appropriations Subcommittee.
    So my real question is who's right on that one?
    Ms. Sherwood-Randall. Thank you, Senator Scott, for giving 
me the opportunity to talk again about this issue with you.
    I want to underscore that we are fully committed to 
disposing of the plutonium that we agreed to dispose of in 
cooperation with Russia. Our main goal in getting this done is 
to ensure that Russia gets it done. I know we will get it done. 
It's going to be hard and it's going to be costly. We will get 
it done.
    What this agreement was structured to do was incentivize 
the Russians to get it done. So we are doing everything in our 
power to ensure that Russia stays on track. I would note, 
Russia also has funding challenges with this project. This is 
complicated stuff to do.
    They also are working to figure out their own way forward 
to achieve the goal.
    Senator Scott. That's good.
    Ms. Sherwood-Randall. That's so----
    Senator Scott. Now, unfortunately I only have about 2 
minutes left--
    Ms. Sherwood-Randall. OK.
    So I'll quickly answer your question.
    Senator Scott. I wanted to make sure that we get it 
answered, so.
    Ms. Sherwood-Randall. There is--when I indicated in my 
council remarks what I did the point is that we have asked the 
question as an Administration is there any better way to 
achieve the goal as responsible stewards of the taxpayer 
dollar.
    Senator Scott. Let me ask----
    Ms. Sherwood-Randall. That is the only question given the 
funding projections.
    Senator Scott. Let me ask a clarifying question.
    Ma'am, this is my 2 minutes. I'm going to just ask you to 
get to the point if you can.
    Ms. Sherwood-Randall. Yes.
    Senator Scott. Is Dr. Moniz correct then when he stated on 
April 9th that MOX is the only alternative that is consistent 
with the agreement?
    Ms. Sherwood-Randall. The agreement is to dispose of----
    Senator Scott. Could you say yes or no?
    Ms. Sherwood-Randall. OK. The agreement is to dispose of 
plutonium in this fashion.
    Senator Scott. Let me ask you.
    Ms. Sherwood-Randall. But the agreement allows for 
alternatives to be explored.
    Senator Scott. Let me ask you another question then.
    The Chair. Senator, please let her answer. Please let her 
answer.
    Senator Scott. Wait.
    The Chair. I'll give you some extra time.
    Senator Scott. Oh, thank you. OK, great.
    The Chair. Yeah, I'll give you some extra time.
    Go ahead, please answer.
    Ms. Sherwood-Randall. The agreement is worded such that 
alternatives can be discussed by both parties if both parties 
agree to discuss them.
    Senator Scott. I'll just quote from the Chief Research 
Scientist as well as a Senior Research Scientist on the Russian 
side from the Center for Arms Control. They said, ``It seems 
that if U.S. side chooses an alternative to plutonium 
disposition method preservation of the international monitoring 
provision in this agreement will not be a priority for 
Russia.''
    Ms. Sherwood-Randall. We should not take any steps that 
diminish the likelihood of Russia fulfilling its obligations. 
We have an obligation to fulfill. We as a Nation have a 
responsibility to figure out how to get it done in an 
affordable manner.
    I, if confirmed, look forward to working with this 
committee and with the appropriators to figure out a way to get 
this project funded.
    Senator Scott. One final quote, just from the CRS, 
According the 2010 protocol amending the PMDA the United States 
would have to obtain written agreement with Russia to implement 
any alternative to eradicating the plutonium in nuclear 
reactors.'' Sorry.
    Ms. Sherwood-Randall. That is correct, Senator.
    Senator Scott. My chief concern is that as we look for, as 
we talked in my office, that science isn't finished yet. The 
fact is that according to where we are today the only 
alternative is the MO<INF>X</INF> facility. Congress seems to 
have a greater, stronger commitment to the agreement and 
funding the agreement than the Administration is willing to 
ask.
    I know that you are not the Administration in and of 
itself. So I realize that all of this cannot be borne by you. I 
do think it's very important for me to highlight that perhaps 
the only known scientific way of disposing of the weapons grade 
plutonium being MO<INF>X</INF> for the Administration not to 
have the commitment to ask for the funding necessary seems to 
me to be disingenuous.
    Thank you.
    Ms. Sherwood-Randall. Thank you, Senator.
    Senator Scott. Yes, ma'am.
    Ms. Sherwood-Randall. I look forward to working with you to 
find a way forward on this, if confirmed.
    Senator Scott. Thank you.
    The Chair. Thank you.
    It is now Senator Portman.
    Senator Portman. Thank you, Madame Chair.
    Thank you, Dr. Sherwood-Randall, for coming before us today 
and for our meeting on Tuesday. I want to start by saying that 
there are 3 young men sitting behind you who are much better 
behaved than Senator Hoeven is or I am today.
    [Laughter.]
    The Chair. Can I say that the chairman has noticed that? 
Thank you, Senator.
    Senator Portman. Yes. I don't know why they're being so 
respectful and polite. But whatever you've taught them to do 
we'd like to know about it.
    So I want to talk to you about an issue, you know, Senator 
Scott just talked about a big issue for South Carolina. I'll 
talk about a huge one for Ohio.
    We just got word that nearly 700 workers employed at the 
cleanup of the Portsmouth Gaseous Diffusion plant in Piketon, 
Ohio are going to be laid off. This is a big deal. It's about 
one third of our total work force there, about 1900 people.
    This is a cleanup that has to occur, you know? It's 
something that everyone agrees is necessary. It's the old 
technology with regard to enriched uranium. Congress has 
specifically charged you with this responsibility. In fact 
since 2005 the Office of Environmental Management has been 
overseeing this cleanup at Piketon.
    I'll quote you from a letter in 2008 that went to Governor 
Ted Strickland. It was from President Obama. He said, ``I will 
work with Congress to provide adequate funding and will direct 
the Energy Department to commence decontamination and 
decommissioning activities of those facilities that are no 
longer needed and maximize the employment of site workers to 
achieve this end. The failure to clean up the site quickly will 
delay future economic development opportunities and only add 
additional mortgage costs and pose undue environmental risks.''
    Said. As you and I talked, I worked very hard on the Frenal 
cleanup years ago. With Senator Glenn we expedited that cleanup 
saving the taxpayers, we think, between $3 and $4 billion.
    So bottom line is we have to clean it up. We should clean 
it up. The quicker we clean it up the lower the cost is going 
to be to the taxpayer and the safer it's going to be for folks 
in Southern Ohio, obviously. Also the quicker we'll be able to 
move to reindustrialization of that site as the President 
talked about in his commitment he made to Governor Strickland.
    It also is very important, economically, for our region. 
These 700 jobs are good paying jobs. We lose these folks it's 
going to be tough to be able to bring them back quickly because 
they will find other work and it will be devastating for the, 
not just Piketon, but that whole 6 or 7 county area in Southern 
Ohio.
    So my question to you is how can we get this commitment the 
President has made to be one that actually results in doing 
what the President said in 2009? Do you emit a secretarial 
commitment to the communities saying that the agency was 
accelerating the cleanup in an effort to jump start the local 
economy and create jobs?
    Three hundred and three million was appropriated to 
initiate the cleanup. There was additional funds provided. Over 
the years the Administration has turned to selling or bartering 
uranium out of the Nation's uranium stockpile to help fund the 
cleanup effort. Over the years DOE has become even more reliant 
on these barter sales to maintain the schedule to the point 
where uranium sales now fund 70 percent of the cleanup.
    I will say when we had our budget committee hearing in 2012 
I discussed this with Secretary Chu. The President's budget at 
that time contained a 33 percent cut to base appropriations for 
cleanup funding at Piketon and resulted in a greater reliance 
on barter sales. I expressed my concern about that.
    Yet, we don't see a plan from the Administration short of 
more barter sales which apparently the Administration is also 
now believes is problematic. So I will tell you part of my 
frustration is that Ohio was given no advanced notice of this. 
That the war notices were going to go out.
    The first my office heard about it was actually from 
workers at the site. From my conversations with Appropriations 
Committees in the House and the Senate they weren't given any 
warning either.
    So I would guess my first question to you is if these 
layoffs occur, you know, there's going to be a significant 
economic hit to our region. If you're confirmed I want to know 
whether you're going to work with us to maintain this 
accelerated cleanup schedule at the Piketonsite.
    Ms. Sherwood-Randall. Thank you, Senator Portman. I 
appreciated the opportunity to talk about this issue with you 
in your office as well.
    I would just start by broadly noting that we, as a Nation, 
have an obligation to cleaning up the legacy of the work that 
was done by communities all across this country in support of 
the nuclear program that has kept our country safe. There are 
many sites in the DOE portfolio that face very tough 
challenges. Of course, you know them well in this committee and 
Washington State, in Idaho, in other places.
    With regard to the Portsmouth facility you observed that we 
have used uranium barter to fund the work at this site and that 
the uranium prices have dropped significantly which is 
presenting a challenge in the funding stream for this project.
    What I would commit to you, if confirmed, is that I would 
work closely with you to identify a way forward that 
acknowledges the important work of this community and that gets 
the job done as efficiently as possible.
    I would also note it would be my hope that, if confirmed, I 
would be able to have such an open dialog with members of the 
committee that if we anticipate challenges such as you've 
described that will present hardship for your work force in 
your State that I would be able to talk with you in advance so 
that there are--there is some warning when something like this 
will happen.
    Senator Portman. I appreciate the fact that you are willing 
to work on the communication. I think that's important. But 
specifically, if confirmed, would you support the barter 
program while also working with us to find a permanent and more 
stable funding stream for the cleanup at Piketon?
    Ms. Sherwood-Randall. I do support the barter program, 
Senator. If the barter program is not sufficient for funding 
our responsibility to complete the project we will need to work 
together to identify additional sources of funding.
    Senator Portman. Thank you, madame chair. My see my time is 
expired. Just one quick point if I could?
    I received a letter on Tuesday from Herman Potter, the 
President of Local USW Chapter where--who I met with also last 
week where he expressed his concern for the safety of his 
workers if these layoffs are allowed to occur.
    I would like to request that that letter be submitted for 
the record.
    I'd also like to request that the President's letter to 
Senator--Governor Strickland be submitted for the record.
    The Chair. Without objection both documents will be 
submitted.
     Senator Risch.
    Senator Risch. Thank you, madame chairman.
    Dr. Randall, first of all, thank you for coming and meeting 
with me. Obviously, you've already identified that we have some 
issues in Idaho that are important as far as the DOE is 
concerned.
    You know, an observation first. After looking at what 
you're responsible for, I mean, of all the people who come 
before this committee and for that matter, the other committees 
I sit on, you've probably got the largest and most diverse and 
certainly one of the most important portfolios of any appointee 
in the Administration. So I wish you well in that regard. I 
hope you've got good people working for you in each of those 
silos because each one is important somewhere.
    I want to start with an item that the ranking member made 
reference to. That is the WIPP issue. As you and I talked 
about, Idaho operates the advanced mixed waste treatment plant 
which is part of the facilities for cleanup at the Idaho 
National Laboratory.
    Unlike a lot of States, Idaho took the bull by the horns 
decades ago and said look, we've got a mess here. It wasn't 
done by bad people. It was done by people who did things 
differently than we do today. We want to change that.
    So we negotiated an agreement with the DOE, the--all of us 
who have been Governor have been stewards of that agreement. We 
stood shoulder to shoulder, Republicans and Democrats, to see 
that the agreement was properly administered.
    We have a couple of challenges there, not the least of 
which, we all know that we have a repository for higher level 
nuclear waste. It's on the books. It's the law.
    The courts have said so. But the Administration won't use 
it.That, of course, is Yucca Mountain.
    At some point in time that or something is going to have to 
be used. In the meantime, of course, we also have for lower 
level waste, the WIPP facility that's been referred to. The 
WIPP facility has been very important to the advanced waste 
treatment plant that we have in Idaho because that's where the 
shipments go.
    Since the fire and since the incident there we, in Idaho, 
have had to do things differently because we can't ship. But we 
in Idaho know how to do these things. We've got a great 
contractor there. I've met with him. They have in place a plan 
for after treatment temporary storage facility. We can only do 
this for a relatively short period of time.
    I want to underscore to you how important it is that we get 
the WIPP facility back up and operating. I know the Federal 
Government isn't notorious for speed, but I want to urge you to 
do all you can to get WIPP back up and running because it will 
do--it will go a long ways for the DOE meeting its commitments 
in Idaho and other places for cleanup.
    So I want to underscore that with you. I know you and I 
have talked about that. I'm looking forward to seeing how 
rapidly you could make progress to get WIPP up and running.
    Like I said, we've, we have, made arrangements in Idaho. 
But it is temporary. We need WIPP up and running.
    I'm running short on time. So I want to talk on--about just 
one more thing that is incredibly important to America, 
probably the most important thing you do. That is you are the 
custodian and you are the person responsible for seeing that 
our atomic warheads, nuclear warheads work when in the F we all 
pray that that day never comes that the trigger has to be 
pulled.
    We need the modernization program moved forward 
aggressively. I was one of the people who was an opponent of 
New START. We went to the Floor and had a robust debate on it. 
We lost. New START treaty was ratified.
    I would tell you today that that wouldn't happen given the 
situation with the Russians today. But just as importantly the 
President picked up a lot of votes by putting out a letter that 
said that he had as a high priority the modernization program 
for nuclear weapons. In fact to quote him he said, ``Pursue 
these programs and capabilities he would pursue these programs 
and capabilities for as long as I am President.''
    After that debate and after that letter the thing kind of 
got pushed to the side. I have to tell you that I am not 
satisfied with the progress that we're making there. I think 
there's a lot of other Senators who are not satisfied.
    In your capacity I would urge you to go to the 
laboratories. To sit down with them. To see what needs to be 
done.
    I didn't ask you, have you been to the laboratories in New 
Mexico?
    Ms. Sherwood-Randall. I have, sir.
    Senator Risch. OK.
    Then you are already aware of the challenges that they 
face, particularly when we don't do testing anymore. Having 
said that, I'm confident that our American ingenuity has these 
warheads ready to go when and if they're necessary, but it's 
going to be up to you to see that that modernization program 
continues. We all know that they are part of our strategic plan 
to keep America safe. They're critical, really, to keeping 
America safe. This program is in your hands.
    I wish you well. I look forward to hearing that report from 
you.
    My time is up. Thank you, madame chair.
    The Chair. Thank you, Senator Risch.
    Ms. Sherwood-Randall. Thank you, Senator.
    The Chair. Senator Hoeven.
    Senator Hoeven. Thank you, Madame Chair.
    Dr. Sherwood-Randall, thanks for coming. I think it is 
pretty cool that your family is here. I can say it looks like a 
pretty impressive bunch, too.
    I'm going to actually, firstly I do want to associate 
myself with some of the comments made by Senator Risch.
    I also don't support the New START treaty. Also am 
concerned about making sure that we're modernizing our nuclear 
force, so the ICBMs, as well as air launch cruise missile and 
the new versions of that standoff capability.
    We've got to--we have to be dedicated to that as well as 
the nuclear research at the labs because the defensive forces 
are getting more and more sophisticated. We've got to maintain 
our technological advantage. So it's very important.
    I know that's an important part of your portfolio. 
Obviously we have to work in the Congress to make sure those 
things get funded as well. But it really is a priority and it's 
about modernizing and making sure that we continue to have the 
technological advantage over everybody. It's vitally important 
for our soldiers and for the defense of our country.
    I want to actually switch gears with you a little bit. Now 
this may have been asked by either the Chairwoman or the 
ranking member. So if it has been I apologize. But, you know, 
then you would have gotten a chance, a little practice, in 
answering it already.
    But my question is do you approve the Keystone? Do you 
support approving the Keystone XL pipeline and why or why not?
    Ms. Sherwood-Randall. Senator, first of all I'm sorry you 
and I didn't have an opportunity to meet. But I look forward, 
if confirmed, to having that opportunity in the future.
    I do want to make one observation about what you said about 
New START.
    Senator Hoeven. Please.
    Ms. Sherwood-Randall. The President fully abides by what he 
said, what he committed to Congress in that letter in December 
2010. I actually have been charged with the responsibility for 
that in my current role at the White House.
    I have been working both to ensure the implementation of 
our new nuclear employment guidance.
    Have been working on our efforts to modernize the warheads 
that need to be modernized in order to ensure that they are 
viable far out into the future. These are the life extension 
programs that are so costly.
    Have been working on our naval nuclear reactors program and 
on the challenges of infrastructure recapitalization for the 
entire nuclear enterprise that are so critical.
    Let me note, you mentioned the importance of Congress 
providing the funding for this effort. The big difficulty we 
face in this arena in fulfilling these commitments is the 
funding streams. These projects are huge projects. The 
infrastructure is aging.
    In order to do what we need to do, to keep this mission 
viable, we need sustainable funding far out into the future. I 
am deeply committed to this mission and look forward to working 
closely with you, if confirmed.
    Senator Hoeven. Doctor, that's accurate. But understand 
that we need help convincing colleagues in Congress to support 
that funding. So part of doing just what you say is you 
weighing in, particularly on your side of the aisle, and 
encouraging members to support that.
    Ms. Sherwood-Randall. I would look forward that, if I'm 
confirmed. I suspect that this issue will be one that will be 
before us. I would be eager to be involved.
    On the Keystone issue, as I have been briefed, the 
Department of Energy does not have the authority to decide 
about Keystone.
    But I would like to note what I am excited about being 
involved in, if I'm confirmed at the Department of Energy which 
is the role that DOE plays in innovation in this space, in 
bringing to market for the American consumer many options for 
supply of energy. The work that is being done across the labs 
to develop new possibilities, the investment that the 
Department is making in its grant program and in its loan 
program in this space, in fossil, in clean energy, in 
renewables, in new kinds of energy that are just being 
developed, is so exciting because that will ensure that we have 
the technology to support a low carbon future and that our 
consumers are given access to energy at the lowest possible 
cost.
    As I noted at the outset, that we can continue to lead the 
world in this space as well as others.
    Senator Hoeven. Do you support more LNG export?
    Ms. Sherwood-Randall. We had the opportunity, I think, to 
talk a little on this before you came in. Let me say that I 
understand that the Department of Energy has the review process 
for consideration of proposals for LNG exports. That the 
Department has just approved 6 conditional proposals and one 
final proposal for exports.
    So that's the first. That's the tip of the spear in moving 
out to export LNG in an environment in which we finally have 
enough that we can think about exporting it.
    Senator Landrieu has noted her eagerness to identify ways 
that would enable us to move expeditiously and within the 
bounds of what is legally possible. The review process that is 
necessary to ensure that we're meeting all the national, the 
public interest, requirements of the Natural Gas Act. I am a 
supporter of this process that will enable us to be competitive 
abroad as well as to support the American consumer at home.
    Senator Hoeven. Who leads energy policy, the Department of 
Energy or the EPA?
    Ms. Sherwood-Randall. There are, as you know, shared 
responsibilities across the government for varied aspects of 
energy policy. The energy policy is set by a group that 
includes, of course, the President, the Secretary of Energy, 
the Secretary of Commerce, the Head of the EPA and others.
    Each agency has distinct responsibilities.
    Senator Hoeven. Madame Chair, I have some more questions. 
Should I wait for the next round or?
    The Chair. We weren't planning to have another round. But 
let me ask one question and why don't you confer with the 
ranking member and if we can provide some additional time, we 
will. We can also submit those to the record.
    But let me follow up here with a question because being 
competitive in a low carbon future is an interesting phrase. 
Some people want that lower than others. But everybody admits 
we'll be there to some degree. The question is the degree.
    But one of the low carbon producers in our country is 
nuclear. Zero carbon producer. But the nuclear industry is 
under a serious challenge right now.
    We've got 103 nuclear power plants. We have the serious 
issue of disposal of waste that's before our committee and has 
been pending before this committee long before I became chair 4 
months ago. So I'm sorry I haven't been able to figure that out 
in the- months I've been here since it's been pending before 
this committee for about 20 years.
    But set apart from that, what can you say to us about with 
the advances in gas that's causing the market pressures on 
nuclear and cost associated with, you know, the safe nuclear, 
post, you know, the accident in Japan. Can you give us one or 2 
minutes and I'm going to follow up with a more detailed 
question about some possible paths forward to have a robust 
nuclear industry which, I think, is so important for our 
reliability, our base fuel and fits in with, I think, with your 
mission of advancing science and technology and with this 
Administration's vision of a low carbon future.
    Ms. Sherwood-Randall. Senator, thank you for giving me the 
opportunity to answer this question.
    As you know we have embraced an all of the above strategy 
and nuclear has an important place in that strategy. The 
Administration has provided, through a loan guarantee of $6.5 
billion, funding for the first nuclear power plant to be built 
in the United States in several decades. That's happening in 
Georgia now.
    There has also been an approval recently for funding for 
the design and R and D for 2 small modular reactors. Again, 
with an intent to develop the technology so that we can 
generate more energy using nuclear power.
    If confirmed, as you noted, I would have the opportunity to 
work closely with the labs and with industry to advance this 
objective.
    The Chair. I think that's very important. I'll submit some 
more questions to the record. But thank you.
    The Chair. Senator Hoeven, would you have additional 
questions?
    Senator Hoeven. Just one or 2 and it follows the line of 
questioning I asked you before.
    I asked you about Keystone. You said that EPA doesn't make 
that decision, but we're in the 6th year of trying to get a 
permit, trying to get a decision on a pipeline that would bring 
oil from Canada and my State and Montana to refineries in the 
U.S. verses getting it from the Middle East.
    We've got LNG bills. Both the Chairman of the Energy 
Committee and the ranking member have LNG bills. I'm on a 
number of LNG bills that would enable us to export natural gas 
to our allies in Europe and the Ukraine which would be a 
response to the aggression we've seen from Russia and Vladimir 
Putin in Ukraine.
    But also in States like mine where we're flaring off gas. 
We produce 30 trillion cubic feet a year of natural gas. We 
consume 26 trillion. So we end up flaring off gas.
    We need markets. It creates jobs. It creates economic 
activity and we have bills that we're not able to advance.
    After the Congress refused to implement cap and trade or to 
pass cap and trade, the EPA now has come forward at the 
Administration's direction and proposed regulations that will 
shut down coal plants because they can't meet the greenhouse 
gas standards that are being imposed under these proposed regs 
for new plants and for existing plants.
    So, go back to my earlier question. In this Administration 
who leads energy policy, the Department of Energy or the EPA? 
How do you, I mean, and your answer before was well, they both 
have a role.
    I understand they both have a role.
    Ms. Sherwood-Randall. So----
    Senator Hoeven. Who is leading this energy policy because 
you see on the one end you support an all of the above 
approach, but you also support the President's climate change 
initiatives. But in all these cases you're preventing 
development of an all of the above approach.
    So, in this Administration how are you going to have an 
impact? Who leads energy policy and how do you intend to weigh 
in on all of these important issues?
    Ms. Sherwood-Randall. Thank you, Senator.
    I am before you as the nominee to be Deputy Secretary of 
Energy. So let me talk about what it is that energy brings to 
the table to respond to your question.
    The Energy Department----
    Senator Hoeven. I----
    Ms. Sherwood-Randall. Offers----
    Senator Hoeven. Excuse me, Doctor.
    Look, what I'm looking for is you've got all these things 
that will create more energy for this country. All of the above 
means all of the above. To say all of the above promotes some 
and prevent others is not all of the above.
    So I want an--so I would ask for a response that is 
responsive to that issue, not just a general statement that 
yes, we all have to, you know, work together.
    Ms. Sherwood-Randall. I----
    The Chair. Would you give her a chance to respond, please, 
Senator?
    Senator Hoeven. Yes, ma'am. Madame Chairman, I think I've 
been pretty patient in that regard, but absolutely.
    Ms. Sherwood-Randall. The Department of Energy can offer to 
the industries that you're describing opportunities to develop 
technology that will enable them to remain competitive in a low 
carbon economy. So this Administration has invested a 
substantial amount, $6 billion in grants and newly proposed $8 
billion in loans to the fossil community to develop new 
technologies. So we're funding carbon capture work and actually 
there are 2 plants that are now implementing this new 
technology to make it possible to bring to market. So that, all 
of the above is real.
    I look forward, if confirmed, to working with you to ensure 
that the concerns that you have in this regard are reflected in 
the policies we're pursuing.
    What DOE brings to the table is options. We're actually the 
good guys in this regard because we can support innovative 
technology that keeps us competitive.
    Senator Hoeven. That's good because there's a difference. 
For example, if you take coal. There's a difference between 
technically feasible and commercially viable.
    So you can impose a regulation or EPA can impose a 
regulation and say, the technology is technically feasible to 
achieve this standard. But if it's not commercially viable that 
company goes out of business.
    Ms. Sherwood-Randall. Right.
    Senator Hoeven. So that's why I go back to this issue. If 
you're going to truly have an all of the above energy policy, 
you've got to be an enabler. To just say, oh, it works and let 
these regulations be imposed results in these industries being 
shut down. That's not an all of the above policy.
    If you're not going to help break that deadlock or solve 
that problem in DOE who do we turn to for assistance in that 
effort?
    Ms. Sherwood-Randall. Senator, if confirmed, I hope to be 
that very enabler.
    Senator Hoeven. Thank you.
    The Chair. Thank you, Senators, for your excellent 
questions.
    Thank you for your excellent testimony.
    I think that concludes our hearing for today. If you and 
your family will join me in the back for some pictures, we'd 
love to have you.
    Ms. Sherwood-Randall. Thank you.
    The Chair. Our meeting is adjourned. The record will stay 
open for 2 weeks. Additional questions will be submitted. 
Please expect those. we would like a timely response which I'm 
sure you will provide.
    The Chair. Meeting adjourned.
    Thank you.
    [Whereupon, at 11:25 a.m. the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

        Response of Elizabeth Sherwood-Randall to Question From 
                            Senator Landrieu
    Question 1. In 1992, General Brent Scowcroft asked the Committee on 
International Security and Arms Control of the National Academy of 
Sciences for a full-scale study of the options for managing and 
disposing of surplus weapons plutonium. In the resulting study, the 
Committee recommended that weapons plutonium be disposed of in a manner 
that would meet what it called the ``spent fuel standard.'' The 
Committee defined the ``spent fuel standard'' as making ``plutonium 
roughly as inaccessible for weapons use as the . . .  plutonium that 
exists in spent fuel from commercial reactors.'' National Academy of 
Sciences, Management and Disposition of Excess Weapons Plutonium 12 
(1994). See also National Academy of Sciences, Management and 
Disposition of Excess Weapons Plutonium: Reactor-Related Options 2-3 
(1995); National Academy of Sciences, The Spent Fuel Standard for 
Disposition of Excess Weapons Plutonium: Application to Current DOE 
Options 1 (2000).
    The Department of Energy used the Academy's report ``as the 
starting point for evaluating alternatives regarding the long-term 
storage and disposition of plutonium'' in its programmatic 
environmental impact statement for storage and disposition of weapons 
plutonium. 59 Fed. Reg. 31985, 31988 (June 21, 1994). In 1997, the 
Secretary decided that surplus plutonium should be disposed of by 
converting it into ``forms that meet the Spent Fuel Standard, thereby 
providing evidence of irreversible disarmament and setting a model for 
proliferation resistance.'' 62 Fed. Reg. 3014, 3016 (Jan. 21, 1997) 
(Record of Decision on Final Programmatic EIS). In addition, the 
Secretary decided to fabricate surplus weapons plutonium into mixed 
oxide fuel for irradiation in light-water reactors. 65 Fed. Reg. at 
3029. The Secretary has concluded that use of plutonium in mixed oxide 
fuel meets the Spent Fuel Standard. E.g., 65 Fed. Reg. 1608, 1618 (Jan. 
11, 2000).
    a. Do you agree that the fundamental purpose of the Department's 
plutonium disposition program is to ensure that surplus weapons 
plutonium is never again used for nuclear weapons and that the Spent 
Fuel Standard is the appropriate standard against which plutonium 
disposition options should be evaluated?
    Answer. Yes, I agree that the fundamental purpose of the 
Administration's plutonium disposition program is to ensure that 
surplus weapons plutonium is never used again. If confirmed, I intend 
to work with Secretary Moniz to fulfill the President's commitment to 
the U.S. Plutonium Disposition mission, consistent with our obligations 
under the U.S.-Russia Plutonium Management and Disposition Agreement.
    b. Do you agree that fabricating plutonium into mixed oxide fuel 
and irradiating it reactors meets the Spent Fuel Standard?
    Answer. Yes, I agree fabricating plutonium into mixed oxide fuel 
and irradiating it in reactors is consistent with the definition of the 
Spent Fuel Standard. c. Would burial of plutonium in the Waste 
Isolation Pilot Plant meet the Spent Fuel Standard? Management and 
Disposition of Excess Weapons Plutonium 12 (1994). Answer: I am aware 
that one of the alternative excess plutonium disposition pathways 
currently being evaluated by the Department would involve downblending 
and disposing of plutonium in a repository. While this option would not 
meet the spent fuel standard, the 1994 report on the Management and 
Disposition of Excess Weapon Plutonium discussed other ways to minimize 
accessibility of the plutonium by creating physical, chemical, or 
radiological barriers. The downblending and disposal option would 
minimize accessibility through both physical and chemical barriers. 
Article III of the U.S.-Russia Plutonium Management and Disposition 
Agreement states that disposition can also be ``any other methods that 
may be agreed by the Parties in writing.''
       Responses of Elizabeth Sherwood-Randall to Questions From 
                            Senator Heinrich
    Question 1. At a hearing in April 2013, I asked Deputy Secretary 
Poneman the status of appointing a Technology Transfer Coordinator as 
required by section 1001(a) of EPAct05. Mr. Ponemen responded for the 
record that the position was vacant and would be addressed after a new 
Secretary was confirmed. It's now more than a year later and the 
position remains vacant. Given the importance of technology transfer to 
economic development, and the interest in accelerating technology 
transfer from so many members of Congress, I find the continued vacancy 
unacceptable.
    What is the status of appointing a Technology Transfer Coordinator?
    If confirmed, will you make the appointment of a coordinator a 
priority and will you work to enhance technology transfer efforts at 
DOE's laboratories?
    Answer. I understand that the Department of Energy and its 
laboratories have a long tradition of working with academia and the 
private sector on research and technology development efforts that have 
generated many scientific advances, and led to the creation of new U.S. 
businesses, jobs, and industries. It has been a priority of the 
Administration to help strengthen U.S. competitiveness by speeding up 
the transfer of Federal research and development from the laboratory to 
the marketplace, and the appointment of a permanent Technology Transfer 
Coordinator is an important element of that equation.
    It is my understanding that the Department is actively looking to 
fill the role of Technology Transfer Coordinator. In the interim, 
Secretary Moniz has asked Dr. Ellen Williams to work as a Senior 
Advisor in his office on tech transfer issues. If confirmed, I will 
make the appointment of a coordinator a priority and will work to 
enhance technology transfer efforts at DOE laboratories.
    Question 2. I understand the NNSA has directed Los Alamos National 
Laboratory and other NNSA facilities to use the Supply Chain Management 
Center, or SCMC, for commodity purchases. A number of local officials 
in Northern New Mexico have expressed a concern that the use of SCMC 
will bypass the normal local competitive RFP process and drive 
purchases away from local and regional contractors to out-of-state 
firms. They indicate the switch to the SCMC has already had a negative 
impact on local small businesses that have a long and successful 
history of contracting with LANL.
    Will you ensure the SCMC system provides small contractors equal 
access to participate in a fair and equitable manner?
    Will you work to find ways for NNSA to assist local small 
contractors in Northern New Mexico in becoming approved SCMC vendors?
    Answer. I believe that small businesses and contractors are 
important to our national security enterprise, including NNSA. While I 
am not yet fully briefed on the details of the Supply Chain Management 
Center, I understand from our conversation in your office last week 
that it is important to you to ensure that small businesses and 
contractors have opportunities to compete. I am familiar with Northern 
New Mexico from my time there earlier in my career. I appreciated the 
opportunity to discuss this with you when we met prior to my 
confirmation hearing and, if confirmed, I look forward to learning more 
about the Supply Chain Management Center and working with you on this 
issue.
       Responses of Elizabeth Sherwood-Randall to Questions From 
                             Senator Wyden
    Question 1. The clean-up of Hanford is one of the most complex 
chemistry problems in the world and DOE has been working, 
unsuccessfully for decades to engineer treatment technologies for 
hundreds of millions of gallons of many different kinds of radioactive 
waste stretching back to the Manhattan Project. I have raised this 
issue with Secretary Moniz, but to date I still do not see any 
substantive change in management approach or direction. Hanford 
contractor personnel are being required to sign non-disclosure 
agreements to prevent them from disclosing problems in the future. I am 
including an example of such an agreement along with these questions. I 
understand that DOE personnel are being told to that they too will be 
punished if they disclose information.
    a) Will you please report back the extent to which these NDA's are 
being required both by DOE and by its contractors?
    Answer. I appreciated our opportunity to discuss this issue when we 
met in your office prior to my confirmation hearing. It is my 
understanding that non-disclosure agreements are used to ensure that 
sensitive, non-public information such as personally identifiable 
information and business-sensitive information is protected by Federal 
and contractor employees. I understand that the use of a non-disclosure 
agreement does not supersede the right and requirement of Federal or 
contractor employees to raise concerns. Further, I recognize your 
concern that employees may perceive contractors are using non-
disclosure agreements to inhibit whistleblowers from raising issues. If 
confirmed, I will look into this issue in greater depth and consult 
with you once I have been fully briefed.
    b) How can DOE support transparency and provide an environment safe 
for employees to report concerns at the same time that it binds them 
legally to silence?
    Answer. It is my understanding that the use of a non-disclosure 
agreement does not supersede the right and requirement of Federal or 
contractor employees to raise concerns. I strongly believe that all 
workers must feel confident in their ability to ask questions and 
express concerns. If confirmed, I will work to further efforts that are 
underway at the Department of Energy to reaffirm a culture of 
transparency and accountability
    c) What will you do to make sure that both contractors and Federal 
employees are not intimidated and punished for raising safety and 
management problems?
    Answer. I believe that all workers must feel confident in their 
ability to ask questions and express concerns. I understand that the 
Department of Energy is currently undertaking efforts to 5 ensure that 
this is the case. If confirmed, I look forward to learning about the 
efforts currently underway and taking additional steps to enhance them 
if necessary.
    Question 2. Renewable energy technologies such as hydrokinetic 
energy and geothermal energy show huge promise for putting clean energy 
on the grid, and are important industries in my state of Oregon. These 
renewables continue to be underfunded in the DOE's budget requests. In 
fact, the Marine Hydrokinetic Program was one of the only programs to 
be cut back in the EERE FY15 budget. Will you commit to work with me to 
ensure that the level of budget support for these renewables within DOE 
matches both their continued importance to my state and clean energy 
broadly?
    Answer. Although I am not yet familiar with the budget history of 
marine hydrokinetic activities, it is my understanding that the 
Department is committed to advancing marine hydrokinetic research, 
development and demonstration. Further, I believe these clean energy 
technologies can play an important role in the Administration's ``all-
of-the-above'' energy strategy. If confirmed, I commit to working with 
you on this important issue.
       Responses of Elizabeth Sherwood-Randall to Questions From 
                            Senator Manchin
    Question 1. Doctor, the President has pledged that his energy plan 
will recognize the need for an ``all-of-the-above'' strategy. How do 
you see coal fitting in to this strategy?
    Answer. I believe that coal will remain a critical part of our fuel 
mix for decades to come. As part of the Administration's ``all-of-the-
above'' energy strategy, the Department of Energy is working to make 
sure that coal remains a competitive energy source in a low carbon 
future. For example, I strongly agree with the Administration's ``all-
of-the-above strategy'' and, if confirmed, I will work hard to deliver 
on the commitment to advance coal technology as part of a low carbon 
future.
    Question 2. Doctor, as we've discussed, coal will continue to be 
used in this country and abroad in great volume for the foreseeable 
future.
    The Department of Energy currently has $8 billion in loan 
guarantees available for advanced fossil projects. These guarantees 
were first authorized by Congress in 2005 but have not yet been 
provided to applicants. Can you please assure me that you will work 
hard to make these guarantees available for coal plant efficiency 
projects so that our country will lead the world in developing 
technology that allows for the continued use of coal while 
simultaneously reducing emissions?
    Answer. I fully support the goal of making guarantees available for 
advanced fossil energy projects, including coal plant efficiency 
projects so that our country will lead the world in developing 
technology that allows for the continued use of coal while 
simultaneously reducing emissions. As I understand it, to date no loan 
guarantees have been finalized under the available authority for fossil 
energy projects. As a result, in December 2013 the Department put forth 
a new solicitation for advanced fossil energy projects in order to find 
innovative fossil energy projects to finance. I understand that the 
Department is now reviewing applications received through that 
solicitation. If confirmed, I will make sure the Department is doing 
everything it can to make this program a success, consistent with our 
goal of ensuring that coal will remain a competitive energy source in a 
low carbon future.
    Question 3. Similarly, the Department's Office of Fossil Energy has 
roughly $1.7 billion in unspent advanced fossil grant funds that it has 
had since 2009. Will you work with me to make sure these funds are used 
wisely and that research universities are included in the 
administration of chosen projects?
    Answer. While I have not yet been briefed on any outstanding 
balances in the Office of Fossil Energy budget, if confirmed, I would 
be pleased to work with you to ensure the fossil energy budget is used 
wisely. This is consistent with the Administration goal of ensuring 
that fossil energy remains a competitive part of the Nation's energy 
mix in a low carbon future.
    Question 4. Secondly, I'd like to ask your help on an issue with 
which I know you are quite familiar. Russia is proceeding in its 
efforts to cut off natural gas shipments to Ukraine. Not 
coincidentally, the Ukrainian government has announced that its top 
priority is to reduce its dependence on imported natural gas by 30 
percent. It makes sense for the United States, in this time of crisis, 
to provide Ukraine with the technology to efficiently burn their own 
domestically-produced coal. I'd like to get your commitment to work 
with me to ensure we use advanced American fossil energy technology and 
our international financing mechanisms, including the Export-Import 
Bank and the Overseas Private Investment Corporation (OPIC), to provide 
the Ukrainians with a solution for their energy security. May I have 
your commitment to help with my efforts?
    Answer. I share your concerns about the energy security of our 
European allies and partners that have become more salient as a 
consequence of the crisis in Ukraine. G7 leaders have tasked their 
Energy ministers with taking steps to improve our collective energy 
security, and as part of that I understand the Department of Energy is 
working with its counterparts on many facets of energy security in 
Europe, including promoting more effective use of their own energy 
resources. While I am not yet fully briefed on the ways that the 
Export-Import Bank and OPIC will fit into that strategy, if confirmed I 
will be pleased to work with you on this important issue.
    Question 5. NETL, which is in my state, remains a vital resource 
for our nation in ensuring that we continue to utilize coal as we work 
to reduce emissions from our nation's electricity generation system. 
I'd like to invite you to West Virginia to see NETL with me. Would you 
be willing to consider my invitation?
    Answer. Yes. If confirmed, I would be very pleased to visit NETL 
with you, which is an important resource to our Nation in conducting 
clean coal research and development.
    Question 6. Coal is a critical energy source for our Nation. Coal 
is also a vital part of the economies of a number of states, including 
West Virginia. NETL has played a key role in identifying, developing 
and deploying numerous technologies that have increased efficiencies 
and reduced environmental concerns from coal-fired power plants. Will 
you support NETL's role in coal research and will you work to reverse 
the trend of diminished budgets and diminished support for NETL coal 
programs?
    Answer. Yes. I believe that NETL plays an indispensable role in 
clean coal research and development. While current budgetary 
constraints present funding challenges across the the Department of 
Energy complex, if confirmed, I will work to ensure that NETL receives 
sufficient support for its core mission of advancing fossil energy 
technology.
    Question 7. Would you be receptive to increasing the Carbon Capture 
and Sequestration (CCS) budget and do you see benefit in increasing the 
budget for coal program areas outside of CCS?
    Answer. I understand that in addition to the annual budget for CCS 
research in the Office of Fossil Energy, a significant investment in 
CCS technology was made as part of the Recovery Act and that the 
projects funded under the Recovery Act are helping to significantly 
advance CCS technology. If confirmed, I look forward to working with 
you to make sure that adequate resources are dedicated to advancing 
clean coal technologies.
    Question 8. Would you also support a robust suite of research 
programs into other coal related technologies including advanced power 
efficiencies, combustion research, gasification, fuel cells, and coal-
to-liquids?
    Answer. Yes. I understand that the Office of Fossil Energy is 
working on those coal related technologies in addition to the work 
being conducted on CCS. This includes work on advanced power 
efficiencies, combustion research--including potentially 
transformational technologies such as oxy-combustion and chemical 
looping- and gasification. I understand that the Crosscutting Research 
Program in the Office of Fossil Energy also includes a number of R&D 
projects on coal related technologies that can increase efficiencies 
such as advanced materials, sensors and controls. If confirmed, I will 
be committed to supporting a robust portfolio of coal related 
technologies that can ensure the role of coal in a low-carbon future.
    Question 9. As you know, I have a keen interest in NETL, Fossil 
Energy's Award Winning National Laboratory. NETL is at the forefront of 
research to develop and utilize fossil energy in an efficient and 
environmentally responsible fashion. NETL has been extremely 
successful, with scores of R&D 100 awards in the last decade, and 
numerous Federal Laboratory Consortium awards for Excellence in 
Technology Transfer. In short, NETL is superb at identifying and 
developing new technologies, and getting those technologies to the 
marketplace. In keeping with the historic structure of NETL and the 
Secretarial Designation declaring NETL a National Laboratory, NETL has 
continued to operate as a Government-owned, Government-operated (GO-GO) 
facility. Although uncommon within DOE, NETL's operating model is 
common throughout much of the Government. Being a GO-GO gives NETL.an 
advantage) . . . If confirmed would you support the current GO-GO 
structure of NETL?
    Answer. Yes. I recognize the uniqueness of NETL's government-owned, 
government-operated structure. If, confirmed I will support its current 
structure.
    Question 10. Given that any attempts to privatize NETL would 
significantly disrupt NETL's ability to carry out its critical missions 
as well as significantly disrupt the workforce, if confirmed, would you 
oppose efforts to privatize NETL's Federal workforce?
    Answer. I am not aware of any efforts to privatize NETL's 
workforce, and, if confirmed, I would support maintaining NETL's 
current status.
    Question 11. NETL has traditionally been a key player in the 
performance of a broad range of DOE programs, most recently Energy 
Efficiency and Renewable Energy (EE/RE) and the Office of Electricity 
Delivery and Energy Reliability (OE). Would you support the continued 
efforts of NETL in accomplishing these key aspects of DOE's portfolio?
    Answer. Yes. As you note, NETL is critical to the Department's 
mission to advance the energy security of the United States. If 
confirmed, I will support the continued success of NETL programs.
    Question 12. What about your vision for the DOE Office of Fossil 
Energy? Some of its programs, such as combined heat and power, have 
been recently moved to other areas of DOE. When will they be brought 
back to the FE fold of work?
    Answer. If confirmed, I will work with the Secretary to assess the 
distribution of activities across the Department to ensure the 
Department of Energy's research is being conducted in ways that 
maximize the Administration's energy policy, security, economic, and 
environmental objectives.
    Question 13. 1If confirmed, do you plan to work to ensure the NETL 
mission is fully supported?
    Answer. Yes.
    Question 14. There are programmatic barriers that limit the NETL's 
ability to grow its programs and capabilities beyond its historical 
fossil energy mission. Would you be willing to help remove those 
barriers so that NETL can respond to growth opportunities?
    Answer. If confirmed, I will learn more about NETL's programmatic 
structure and any challenges it faces. I would be pleased to work with 
you to make sure NETL is fully leveraging its scientific and technical 
expertise in support of our national interests.
    Question 15. Will NETL be allowed to explore into other arenas of 
research, as have other labs and sections of DOE? This type of research 
has allowed other organizations to grow in DOE.
    Answer. As you previously mentioned, NETL is already conducting 
research that cuts across the range of Departmental programs. If 
confirmed, I will examine how best we can maximize the contribution of 
each of the labs to the Department of Energy's mission in support of 
our national interests.
    Question 16. It is reported that the United States has tens of 
billions of barrels of oil left stranded in known reservoirs. This is 
in addition to the recent increased production of natural gas and oil 
as a result of shale reservoir developments, which I might add, DOE and 
more specifically, NETL, played a significant role in research and 
development thereof.
    It is obvious that advanced technologies are needed to unlock this 
substantial domestic resource of ``stranded'' oils, and to do so in an 
environmentally responsible way. However, this Administration 
consistently requests zero, I repeat, zero funding for DOE oil 
research.
    Given this significant potential and all the associated benefits to 
our nation if we develop this ``stranded'' oil resource, would you, if 
confirmed, advocate for research funding focused on Enhanced Oil 
Recovery, including funding for carbon dioxide enhanced oil recovery 
technologies?
    Answer. If confirmed, I will work with the Secretary to assess the 
distribution of activities across the Department to ensure the 
Department of Energy's research is being conducted in ways that 
maximize the Administration's energy policy, security, economic, and 
environmental objectives. It is my understanding that the Quadrennial 
Energy Review process may provide guidance on priorities to be pursued 
with constrained resources.
    I also understand that a number of Office of Fossil Energy-
supported CCS projects, including the Air Products industrial capture 
project in Port Arthur, Texas, the Kemper County Project in 
Mississippi, and the Petra Nova advanced post combustion capture 
retrofit project, are significantly advancing technologies that 
underpin enhanced oil recovery (EOR). Moreover, the Department has 
issued an $8 billion loan solicitation to support energy generation 
projects that will support advanced fossil energy projects, including 
EOR technologies.
    If confirmed, I will support the Department's efforts to advance 
clean coal, including for utilization for EOR, as part of the 
Administration's ``all-of-the-above'' energy strategy.
    Question 17. The DOE's research portfolio seems void of research 
aimed at improving the efficiency of natural gas production from shale 
formations and other unconventional formations, and in maximizing 
resource recovery, and doing so in an environmentally responsible way. 
Such research would have widespread benefits for many businesses, 
including small businesses, and for our nation.
    That being the case, do you recognize the value in production-
related research and would you actively work to secure funding from 
Congress through the DOE Office of Fossil Energy to conduct this 
research?
    Answer. As you mention in your previous question, the Department of 
Energy played a significant role in the research and development that 
has led to U.S. industry greatly increasing our Nation's natural gas 
and oil production from shale. If confirmed, I will work with the 
Secretary to ensure the Department's research is appropriately focused 
to facilitate our transition to a low carbon economy that includes a 
broad range of domestic energy sources, including natural gas.
    Question 18. Many of the landowners and businesses alike involved 
in the recovery of shale gas are concerned about the usage of water in 
that process. Given the enormous economic potentials of this shale gas, 
such a concern should be addressed. To reduce the environmental 
footprint of natural gas production, ``a comprehensive program is 
needed to address the issues of water use and backflow and produced 
water in unconventional gas production,'' as recommended in a report 
issued from an MIT study group chaired by Dr. Moniz in 2011. Would you 
support the funding of a program in the DOE Office of Fossil Energy to 
accomplish such an important goal?
    Answer. Consistent with Secretary Moniz's view, I believe that the 
safe and environmentally sustainable production of America's energy 
resources are a core element of the mission of the Office of Fossil 
Energy (FE).
    I am aware of cross-cutting work within the Administration to 
address this issue, and know that FE is playing a critical role. Last 
month, the Department released a report entitled ``The Water-Energy 
Nexus: Challenge and Opportunities,'' which notes that water scarcity, 
variability, and uncertainty are becoming more prominent, potentially 
leading to vulnerabilities of the U.S. energy system, including in 
natural gas production. The report provides a foundation for future DOE 
action in response to the challenges in this space. Furthermore, the 
Quadrennial Energy Review is also examining water use in energy 
production, and may provide guidance on priorities to be pursued.
    If confirmed, I will work to ensure that the Department's ongoing 
examination of the role of water in energy production informs our 
approach to this important concern.
       Responses of Elizabeth Sherwood-Randall to Questions From 
                           Senator Murkowski
    Question 1. Understanding that you are likely to focus primarily on 
nuclear security and non-proliferation, I also want to learn more about 
your experience with more traditional energy policy. Can you tell us 
the extent of your work on energy, at the federal level or elsewhere? 
If we come to a point where Secretary Moniz decides to leave the 
Department before you do, do you think you will be ready to serve as 
Acting Secretary?
    Answer. Indeed, I have worked for several decades on national 
security, including the safety, security, and effectiveness of our 
nuclear weapons and the laboratories and infrastructure that support 
them, and on preventing the proliferation of weapons of mass 
destruction. As you know, these are important dimensions of the 
Department of Energy's mandate. Furthermore, throughout my career, I 
have had responsibilities for broad, strategic portfolios, in which 
global energy issues have played an increasingly prominent role. As I 
stated in my testimony, I believe that America's domestic resources 
will be a major source of our domestic and international strength in 
the 21st century.
    If confirmed, I look forward to working closely with you and your 
colleagues to advance Secretary Moniz's priorities, including: the 
``all-of-the-above'' energy strategy for America's energy future, 
championing America's international energy leadership, working with our 
national laboratories, universities, and the private sector, and 
strengthening the Department's program and project management across 
the enterprise to deliver results and value for taxpayers. I also look 
forward to working closely with Secretary Moniz and learning from his 
vast experience throughout the energy sphere to ensure that I am well 
prepared to execute my duties as the Deputy Secretary, and, should I be 
called upon to do so, to serve as Acting Secretary.
    Question 2. Do you support GAO's recommendation for a formal 
documented process between DOE, FERC and EPA to interact with respect 
to the impact of EPA rules on electric reliability?
    Answer. I understand that greater coordination between the 
Department of Energy, FERC and EPA is an important element of 
successfully addressing any potential challenges relating to electric 
reliability.
    Question 3. What is your general view of our nation's current 
energy policy and how does Alaska fit in? Do you support an ``all-of-
the above'' energy policy, and if so, what does that phrase mean to 
you?
    Answer. I support the Administration's ``all-of-the-above'' energy 
policy and am committed to advancing it. As you and I have discussed, I 
believe that Alaska has many unique opportunities and challenges--
including many types of energy resources, such as hydropower, 
geothermal, oil and gas, as well as its high cost of electricity and 
dispersed population. I understand that this means that Alaska faces 
challenges that are distinct from those in the lower 48 states, and, if 
confirmed, I pledge to work with you to address those issues.
    Question 4. While you have focused on the nuclear side of DOE-
related energy issues in your career, what technologies do you believe 
offer the greatest potential for economic renewable energy development 
over the next decade? In your opinion, what is the best use of federal 
dollars to advance energy development in the future?
    Answer. I understand that Secretary Moniz has focused on three main 
items within renewable energy development: lowering the cost of 
renewable energy technologies to achieve price competitiveness with 
traditional energy resources; accelerating the transition to a low-
carbon economy; and ensuring that technologies are available to deploy 
renewables at scale. I share his commitment to integrating project 
management functions across Department of Energy offices and 
activities, as well as the private sector, academia and the national 
laboratories--all of which will ensure that we are using Federal funds 
wisely to advance our energy technology development.
    Question 5. Given your past experience in the NSC, do you believe 
energy production and energy exports are in the national interest?
    Answer. As I stated in my confirmation hearing, I believe we should 
be carefully evaluating all options to ensure that we deliver maximum 
value to the American consumer and retain America's competitive edge 
globally.
    Under the Natural Gas Act, exporting LNG requires authorization 
from the Department of Energy. The export permit requires that the 
Department of Energyconfirm that the export would be consistent with 
the ``public interest''. My understanding is that the Department of 
Energy has recently conditionally approved seven proposals for export 
of LNG one of which has been finally approved, and that additional 
proposals are also under consideration.
    Question 6. What are your thoughts on crude oil exports? I realize 
this is typically a Commerce Department area of jurisdiction, but crude 
oil is energy and you will be the Deputy Secretary of DOE if confirmed.
    Answer. As you have stated, current allowances and restrictions 
regarding crude oil exports are set by law and enforced by the 
Department of Commerce. I understand that Administration officials have 
said that they are taking an active look at the implications of growing 
domestic energy supplies, including the economic, environmental and 
security opportunities and challenges that it presents. This includes 
examining how our refining capacity matches with significant increases 
in domestic crude production.
    Question 7. Given your past experience, do you have any thoughts 
about the impact the unconventional oil and gas boom has had on U.S. 
national security and our broader position overseas?
    Answer. The natural gas boom is certainly an advantage for the 
United States. As Secretary Moniz has said, it is partially responsible 
for the decrease in CO<INF>2</INF> emissions that we have experienced 
over the last years and it is a bridge to a low-carbon future.
    The increase in oil production has had very significant impact here 
at home in that for the first time in over 20 years we are producing 
more oil than we are importing. We are largely self-reliant for natural 
gas, which has had the side-benefit of freeing up international 
resources of gas for our allies and partners. While these efforts have 
had a positive impact on our energy security here at home, we have more 
to do across the energy portfolio to increase our energy security and 
assistant to our allies and partners, especially those facing 
manipulative pressure from other providers.
    Question 8. Former Alaska Senator Ted Stevens created the Arctic 
Energy Office in DOE to research a host of energy technologies of 
particular importance to the Arctic--from methods to develop heavy oil, 
to ways to recover methane hydrates from beneath the Arctic seafloor, 
to ways to improve electricity generation and transmission in rural 
areas. Unfortunately, that office closed four years ago and DOE now has 
only a couple of employees partially stationed in Alaska. As you may 
know, a 2008 USGS report found that 13 percent of the world's 
undiscovered oil and more than 30 percent of its natural gas likely lie 
under the Arctic. In light of this, and given the world's interest in 
Arctic issues, do you believe we need a greater emphasis on Arctic, 
cold-climate energy research?
    Answer. I am aware of the value that Alaska's congressional 
delegation places on energy technology research in the Arctic region, 
particularly its energy production potential. During my service in the 
Administration I have participated in the development of our Arctic 
strategy and, if confirmed, I look forward to learning more and working 
with you on this issue.
    Question 9. Given that Secretary Moniz is recused from any 
decision-making related to fusion energy-related activities at DOE, 
would you be able to assume a leading role on this issue? This is 
especially important in light of a recent GAO report that was quite 
critical of the serious management challenges and overall progress (or 
lack thereof) of the International Thermonuclear Experimental Reactor 
(ITER). I believe that a strong and effective leadership team at DOE is 
key to address this latter issue and the overall direction of the 
fusion program in this country.
    Answer. I agree that that strong and effective leadership at the 
Department of Energy is critical to the success of complex, including 
international scientific projects such as ITER. If confirmed, I look 
forward to assuming a leadership role to ensure that this project is 
well managed. Further, I am aware that a number of ITER's challenges 
pertain to participating countries meeting their international 
commitments for the project in a timely fashion as well as management 
issues that are currently being addressed. If confirmed, I look forward 
to being more fully briefed on ITER and identifying options to improve 
the management and governance of the project.
    Question 10. Secretary Moniz decided to create the office of the 
Undersecretary for Science and Energy, with the goal of better 
collaboration between those two crucial parts of DOE. What role do you 
see for yourself in ensuring that this goal is achieved, and can you 
share some of your thoughts on how to ensure the success of this 
strategy?
    Answer. In July 2013, Secretary Moniz and Deputy Secretary Poneman 
announced a Department reorganization creating the Office of the 
Undersecretary of Science and Energy position. The creation of the 
position reflects an understanding that the innovation chain is not 
linear, and that it requires feedback between and among programs 
responsible for different Department of Energy research and development 
(R&D) modes. The Department needs the ability to closely integrate and 
improve the ease of communication among basic science, applied 
research, technology demonstration, and deployment activities. If 
confirmed, I look forward to supporting this model that is designed to 
strengthen the innovation and impact of the Department of Energy's R&D 
efforts.
    Question 11. How will you seek to manage the nation's nuclear 
stockpile?
    Answer. The safety, security, and effectiveness of our nuclear 
arsenal and the vitality of the national laboratories and production 
facilities that support that effort must be a high priority for the 
Deputy Secretary of Energy. If confirmed, I expect to be able to hit 
the ground running on this issue of critical importance to our national 
security. I would build on my deep expertise in defense management and 
nuclear deterrence to ensure that the nation's nuclear stockpile is 
properly resources and adapted to meet our emerging national military 
requirements.
    Question 12. How do you view the relationship between civilian 
nuclear waste and defense waste in terms of disposal prioritization? 
How should the overall issue of disposal be addressed?
    Answer. I am aware that the Obama Administration's efforts on 
nuclear waste disposal are guided by the Blue Ribbon Commission (BRC) 
on America's Nuclear Future's core recommendations and an 
Administration ``Strategy for the Management and Disposal of Used 
Nuclear Fuel and High-Level Radioactive Waste.'' The BRC was 
established to conduct a comprehensive review of policies for managing 
the back end of the nuclear fuel cycle, including all alternatives for 
the storage, processing, and disposal of civilian and defense used 
nuclear fuel, high-level waste, and materials derived from nuclear 
activities. Additionally, I am aware that the Administration's Strategy 
represents a basis for discussions between the Administration and 
Congress on a path forward for disposal of nuclear waste and provides 
near-term actions to be implemented by the Department of Energy pending 
enactment of new legislation. I appreciate your efforts, working with a 
bipartisan group of your colleagues, to introduce legislation on this 
topic. Guided by these efforts, if confirmed, I look forward to working 
diligently to address the needs of the back-end of the nuclear fuel 
cycle and setting it on a sustainable path.
    Question 13. As an Alaskan, I support hydropower in all forms. Over 
the long-term, I believe marine hydrokinetic technology offers 
considerable potential for low-cost renewable energy. At the same time, 
I believe further research can continue to improve conventional 
hydropower production. What is your view on the hydropower resources 
and how do you believe the Department should prioritize its water power 
budget?
    Answer. Hydropower is a key contributor today and is an important 
part of the Administration's ``all-of-the-above'' energy strategy. I 
believe that further innovation and advancement of hydropower 
technologies are both possible and necessary to: lower the costs of 
initial installations; minimize environmental impacts in a timely, low-
cost way; encourage the development of new hydropower generation, 
including micro-generation; and lower the costs of pumped hydro 
storage, which is an important storage option for other power 
generation technologies.
    If confirmed, I look forward working with you on marine 
hydrokinetic issues.
    Question 14. What do you see as the future of Department-funded 
research into wind-turbine technology and for integration of wind into 
the electrical grid? In your view, should DOE's funding for wind-
related activities increase, decrease, or stay at its current level?
    Answer. The research community studying climate science for several 
decades overwhelmingly agrees that we need to accelerate the transition 
to a low-carbon economy as an essential strategy for mitigating the 
most serious impacts of climate change. Energy infrastructure requires 
decades to turn over and the Administration is committed to developing 
and deploying affordable energy technologies at a scale sufficient to 
power and fuel the nation. Lowering the cost of low-carbon options such 
as wind is important to achieving that goal, and it is supported by the 
Department of Energy's R&D portfolio. If confirmed, I will support the 
Department's ongoing efforts to advance wind power as part of the 
Administration's ``all-of-the-above'' strategy.
    Question 15. It is estimated that America has enough methane 
hydrates, if we can access them safely, to power our energy needs for a 
millennium. But, while the Department funded a 2012 test in Alaska to 
prove that hydrates can be made to ``flow,'' it has taken considerable 
effort to get the Department to follow up on that test with further 
testing and research. Given that Japan is considering hydrates as a 
major future source of its energy needs, how do you view the 
Department's role in methane hydrate research? How much funding should 
be provided to support DOE's methane hydrate efforts?
    Answer. Although I have not yet been briefed on the role of methane 
hydrates in the Department's research and development portfolio, it is 
my understanding that the Office of Fossil Energy and the National 
Energy Technology Lab support a number of research projects in 
unconventional natural gas production, including projects focused on 
the potential of methane hydrates.
    If confirmed, I will expeditiously request a briefing on the 
Department of Energy's methane hydrates research portfolio and pledge 
to work with you on this issue.
    Question 16. In Section 803 of the 2007 Energy Independence and 
Security Act (EISA), Congress authorized a matching grant program to 
help fund the capital costs of all types of renewable energy projects 
in high-cost areas like Alaska. The program, however, was not Alaska-
specific but rather national in scope. What is your view on DOE's role 
in general to spur the development of renewable projects and on Section 
803 of EISA in particular?
    Answer. While I am not familiar with the specific provision of the 
Energy Independence and Security Act, I support the continued research, 
development and deployment efforts associated with renewables as part 
of the Administration's ``all-of-the-above'' strategy. Specifically, I 
will support the Secretary's priorities of lowering the cost of 
renewable technologies to achieve price competitiveness with 
traditional sources of energy; accelerating the transition to a low-
carbon economy; and assuring we have the key enabling technologies 
needed to enable renewables deployment at scale
    If confirmed, I will request a briefing on Sec. 803 and look 
forward to working with you to address your concerns.
    Question 17. Former Secretary Chu proposed an expanded role for the 
Power Marketing Administrations (PMAs) to be directed by the Department 
of Energy and without consultation with Congress. After 166 members of 
Congress wrote to then-Secretary Chu to take issue with this approach, 
Deputy Secretary Poneman did not pursue many of the initiatives set 
forth in the so-called ``Chu memorandum.'' If confirmed, would you 
pursue former Secretary Chu's proposed initiatives and expand the PMAs' 
mission? Please explain your approach to the PMAs and specify if and 
how you would change any PMA-related management.
    Answer. I am aware of Secretary Chu's March 16, 2012 memo. If 
confirmed, I will be fully briefed on the Power Marketing 
Administrations and their unique challenges and opportunities. Further 
I will abide by the governing statutes of each PMA, and I will work 
with you and the stakeholders in each PMA region to ensure that the 
PMAs are operating as efficiently and effectively as possible while 
following all Federal laws and applicable regulations.
    Question 18. I have been told the Senate Defense Appropriations 
Subcommittee has included the below language in the base text of their 
bill:

                  SEC. 8121. Notwithstanding section 1552 of title 31, 
                United States Code, funds made available under the 
                heading ``OPERATION AND MAINTENANCE'' under the heading 
                ``DEPARTMENT OF DEFENSE'' under title III of division A 
                of Public Law 111-5 (123 Stat. 132) and any funds made 
                available for Fossil Energy Research and 20 Development 
                by the Department of Energy under title IV of the same 
                division of Public Law 111-5 (123 Stat. 139) shall 
                remain available for expenditure, until such funds have 
                been expended, for the purpose of liquidating the 
                obligations.

    Regarding this language, please clarify:

    a. If the DOE requested this language.
    Answer. To the best of my knowledge, the Department of Energy did 
not request this language.
    b. If the language is placed into law, would DOE interpret the 
language to only allow the funds to flow to the Future Gen 2.0 project, 
or would other fossil energy demonstration projects be eligible to use 
the funds?
    Answer. I am aware that it is the Department of Energy's 
understanding that this language would apply to all of the fossil 
energy demonstration projects authorized by P.L. 111-5.
    c. If DOE would allow other fossil energy demonstration projects to 
use the funds provided by the referenced language, how would DOE 
prioritize allocation of the funds to projects? What criteria would be 
used to determine funding eligibility?
    Answer. I am aware that it is the Department of Energy's 
understanding that this language would only apply to the funding that 
has already been obligated to projects authorized by P.L. 111-5.
    Question 19. Regarding Clean Coal demonstration programs generally, 
what are the ``un-costed balances,'' if any, with respect to funds 
obligated but not expended for clean coal demonstration projects? What 
plans are there to assure that the work underway in such projects will 
be completed or the benefits of the work already completed will be 
preserved if the projects are not completed?
    Answer. I understand that the Department of Energy is focused on 
working to complete clean coal demonstration projects that are 
currently underway. I do not know what steps may be taken for projects 
should they not be completed, but if that should happen, and if I am 
confirmed, I would make every effort to maximize the value of the 
investment for the taxpayer.
    Question 20. Regarding the National Energy Technology Laboratory 
(NETL), and given the comparative success of NETL programs, what 
assurances can you provide about leadership and 21 programmatic 
stability in light of recent changes in the Office of the Director? Do 
you anticipate any significant changes for the lab and its programs as 
a result of the appointment of a new director?
    Answer. I am aware that there will be a new Director of NETL in the 
near future, but I am unaware of any significant changes planned for 
the lab programs. If I am confirmed as Deputy Secretary, I will work 
with NETL to ensure that the transition to new leadership supports the 
continuing execution of its important mission.
       Responses of Elizabeth Sherwood-Randall to Questions From 
                            Senator Portman
    Question 1. If confirmed, will you commit to help improve the 
communication between DOE and Congress?
    Answer. Yes, I will.
    Question 2. DOE is conducting decontamination and decommissioning 
(D&D) cleanup of the Portsmouth Gaseous Diffusion Plant (GDP) in 
Piketon, Ohio. What do you know of the cleanup effort? In your view, 
what are the current and future challenges for the site?
    Answer. I understand that the Portsmouth Gaseous Diffusion Plant 
made an important contribution to American national security and was 
also integral to the commercial nuclear industry. Since the plant 
ceased operations in 2001 and work shifted to cold shutdown in 2006, I 
understand that the plant has been owned by the Office of Environmental 
Management, which is responsible for cleanup at the site. I know that 
the local community is very interested in the cleanup mission as it 
supports important jobs in an economically depressed area and will 
enable future use of the site.
    I am aware that one of the most important challenges is the past 
and current use of uranium barters to accelerate cleanup at the site, 
particularly given the current low global uranium prices and the amount 
of uranium left for the Department to barter to support this work. This 
is presenting a challenge to the community, and it is one that we must 
be sensitive to given the significant contributions made by workers in 
Piketon over many decades.
    Question 3. If confirmed, will you work with the Ohio delegation to 
maintain the Administration's commitment to an accelerated cleanup 
schedule for the Piketon site?
    Answer. I understand that the Department of Energy has for the last 
several years used uranium barters to fund accelerated cleanup at the 
Portsmouth plant. As you and I discussed in your office and 
subsequently during the hearing, if confirmed, I look forward to 
learning more about the details 23 of the site, to finding an 
opportunity to visit it with you, and to working with you to address 
this important issue.
    Question 4. If confirmed will you prioritize the effort to finalize 
the building demolition and the waste disposal plans as soon as 
possible?
    Answer. While I am not familiar with the details of these plans, I 
am aware that they have been delayed. I appreciate your interest in 
moving forward with these plans. If confirmed, I will work to ensure 
that they are moved forward as expeditiously as possible.
    Question 5. It is my understanding that DOE formulated its FY2015 
budget request for the Portsmouth site based on an estimate that FY2015 
barter proceeds would be approximately $188 million. Over the past 
several months, uranium prices have declined and the projected barter 
proceeds for FY2015 are now less than $188 million. If confirmed, what 
measures will you pursue to cover a gap in funding Portsmouth D&D in 
FY2015 caused by lower uranium prices?
    Answer. I am aware that falling global uranium prices are expected 
to have a significant impact on the cleanup work at Portsmouth, and I 
am concerned about this impact on the workforce and on the pace of 
progress. If I am confirmed, I work with Congress and within the 
Department to determine what options are available to address the 
challenges created by lower uranium prices.
    Question 6. In your opinion, has the Department followed the 
requirements of the USEC Privatization Act that require the Secretary 
to determine that its transfer of uranium does not harm the domestic 
uranium industry?
    Answer. It is my understanding that Secretary Moniz recently issued 
a determination in accordance with the requirements of the USEC 
Privatization Act in May 2014.
    Question 7. If confirmed will you support the barter program while 
also working with Congress to find a permanent and more stable funding 
stream for the cleanup at Piketon?
    Answer. I am aware that the uranium barter program has permitted 
the Department to make uranium transfers to fund accelerated cleanup at 
the Portsmouth site, and I understand that the continuation of this 
program is consistent with the Department's principles and policies, 
and will help continue to fund cleanup. If confirmed, I will support 
the continued use of the barter program along with seeking 
appropriations as needed to fulfill our clean-up efforts.
    Question 8. The United States must have the technology for a fully 
domestic source of enriched uranium to support our nuclear weapons 
program and the Navy nuclear reactors program. Secretary Moniz, 
Secretary Chu, Assistant Secretary Peter Lyons, and your predecessor 
Dan Poneman have testified to that fact before this committee. Do you 
agree with that sentiment?
    Answer. Yes, that is my understanding, and based on my 
understanding I agree with that policy.
    Question 9. International agreements prevent us from purchasing 
enriched uranium from foreign-owned companies for military purposes. Is 
that your understanding?
    Answer. Yes, that is my general understanding.
    Question 10. The United States has no operational enrichment 
capability that meets those national security requirements now that the 
Paducah Gaseous Diffusion Plant is shut down, is that correct?
    Answer. It is my understanding that there is no other operational 
capability to meet those requirements at the present time.
    Question 11. Are you aware of any technologies on the immediate 
horizon that could fulfill this requirement?
    Answer. I am not aware of any other technology applicable for this 
requirement that are immediately available.
    Question 12. Do you believe that these national security 
implications should be taken into account when it comes to any federal 
involvement in the development of an enrichment capability?
    Answer. Yes.
    Question 13. If confirmed, will you support the Department's 
efforts on ACP?
    Answer. Yes, I will support the Department's efforts towards a 
U.S.-origin enrichment capability.
       Responses of Elizabeth Sherwood-Randall to Questions From 
                            Senator Barrasso
    Question 1. Earlier this year, the Department of Energy (DOE) gave 
conditional approval to the Jordan Cove LNG export terminal. This 
terminal would enable natural gas producers in Wyoming and other states 
to export LNG to markets in Asia.
    DOE's Conditional License Order for the terminal reads as follows: 
``To the extent U.S. exports can diversify global LNG supplies, and 
increase the volumes of LNG available globally, it will improve energy 
security for many U.S. allies and trading partners.''
    Immediately afterward, the Order states: ``As such, authorizing 
U.S. exports may advance the public interest for reasons that are 
distinct from and additional to the economic benefits identified in the 
[NERA] LNG Study.''
    Do you agree that LNG exports from the United States, including LNG 
exports to Asia, would improve the energy security of our allies and 
trading partners and promote the public interest here in the United 
States? Please provide a ``yes'' or ``no'' answer. If your answer is 
``no,'' please explain why you disagree.
    Answer. Yes, based on the briefings I have received from the 
Department of Energy, I agree.
    Question 2. On Tuesday, David Goldwyn, a former Special Envoy for 
International Energy Affairs at the State Department, testified before 
the Foreign Relations Committee.
    He stated that: ``A clear signal from the U.S. that LNG exports 
will be available to European allies for future purchase would put 
immediate pressure on Russia's market share and export revenues.''
    You are an expert on Russia and Ukraine. You have written 
extensively on these countries. You have also served in prominent roles 
at the Department of Defense and on the National Security Council where 
you helped set policy related to these countries.
    Do you agree with Mr. Goldwyn that--``A clear signal from the U.S. 
that LNG exports will be available to European allies for future 
purchase would put immediate pressure on Russia's market share and 
export revenues''? Please provide a ``yes'' or ``no'' answer. If your 
answer is ``no,'' please explain why you disagree.
    Answer. We take the energy security of our allies and partners in 
Europe very seriously. The Obama Administration has been working with 
European governments to strengthen energy security and diversify 
supplies.
    The Department of Energy has conditionally approved U.S. LNG export 
facilities with 9.3 billion cubic feet per day of capacity that can be 
exported both to countries with which we have Free Trade Agreements and 
to those where we do not, such as European countries. These are volumes 
are significant--to put it in perspective, these volumes are more than 
the total amount of LNG that Europe currently imports and equal to over 
half the gas Europe currently imports from Russia.
    As I understand it, the first project to export U.S. LNG is not 
expected to come online until late 2015/early 2016. Nevertheless, we 
are committed to putting gas onto the global market in a way that is 
consistent with U.S. public interest because we know that increased 
global supplies help our European allies and other strategic partners.
    Question 3. In over three and a half years, DOE has approved only 
one application to export LNG. It has given conditional approval to six 
other applications. Meanwhile, DOE is sitting on 26 pending 
applications, the majority of which have been pending for more than a 
year.
    In light of what is taking place in Europe, do you believe the 
Administration is acting fast enough on pending LNG export 
applications? If not, what steps, if any, would you take to expedite 
the processing of LNG export applications? Please be specific.
    Answer. The Natural Gas Act requires the Department to conduct a 
public interest determination for LNG exports to non-Free Trade 
Agreement countries. An important factor in that analysis is 
international considerations. I understand that the Department recently 
proposed a change in LNG authorization procedure that would streamline 
the approval process by eliminating the step of issuing conditional 
commitments. By eliminating this step, the Department of Energy can 
turn immediately to the projects most ready to proceed with 
construction. I believe that this is an important step in streamlining 
the process. If confirmed, I will ensure that the Department of Energy 
conducts its review of the export applications as expeditiously as 
possible consistent with the public interest.
    Question 4. DOE has proposed to suspend issuing conditional 
licenses altogether. Instead, it has proposed to issue licenses after 
the Federal Energy Regulatory Commission completes the environmental 
review process for projects. If DOE decides to stop issuing conditional 
licenses and you are 28 confirmed, would you support DOE making 
exceptions if the applicant can show that its project would not be 
financially viable without a conditional approval?
    Answer. I am not yet at the Department and not privy to discussions 
between the Department of Energy and the applicants, but I understand 
the latest proposed change to eliminate conditional approvals was done 
in response to changing needs in the marketplace. I understand that the 
proposed change was put out for public comment, but I do not know what 
those comments have said about the elimination of conditional 
approvals. If confirmed, I would like to review what the Department 
learned through the comment period before considering any further 
changes in procedure, and I would be pleased to discuss this with you 
at that time.
    Question 5. For years, DOE has transferred its excess uranium 
inventories to other parties in exchange for cleanup services. I have 
repeatedly expressed my opposition to these transfers. DOE's transfers 
distort America's uranium market and hurt our uranium producers.
    Since May 2012, the Department of Energy's transfers have 
contributed to about a 50 percent drop in the spot price of U3O8. 
Between 2011 and 2013, the Department of Energy's transfers have 
contributed to a 19 percent drop in employment in uranium exploration 
and mining.
    On May 15 2014, Secretary Moniz issued a Secretarial Determination 
authorizing additional uranium transfers. In his order, Secretary Moniz 
included a finding that these transfers would not have ``an adverse 
material impact'' on America's uranium mining, conversion, and 
enrichment industries. With all due respect to the Secretary, his 
finding is hard to believe.
    Last week, I--along with 17 other members of Congress--sent 
Secretary Moniz a letter about his order (attached). We asked him to 
provide the basis for his finding that DOE's transfers will not have an 
adverse material impact on America's uranium mining, conversion, and 
enrichment industries. To date, DOE has refused to disclose this 
information.
    When can we expect the Secretary to disclose the requested 
information?
    Answer. I am aware of the recent letter that you sent to Secretary 
Moniz, and appreciate your having shared it with me as well in advance 
of my confirmation hearing last week. As I am not yet at the 
Department, I do not have precise knowledge regarding the schedule for 
Secretary Moniz to provide you with the requested information.
    Question 6. Do you believe that it is important that the United 
States have strong uranium mining, conversion, and enrichment 
industries? If so, please describe what steps, if any, that you would 
take, if confirmed, to mitigate the impact that DOE's uranium transfers 
have had on America's uranium mining, conversion, and enrichment 
industries. Please be specific.
    Answer. I agree it is important for our country to have a strong 
domestic uranium industry. If confirmed, I will work to ensure that any 
uranium transfers continue to comply with applicable statutory 
obligations and are done in a transparent manner. I will also work to 
ensure that implications for the domestic uranium industry are examined 
as part of any future determination on this issue. Finally, I will work 
across the Department to promote scientific and technical innovation as 
appropriate in relation to the domestic uranium industry.
    Question 7. In 2008, DOE set forth its Excess Uranium Inventory 
Management Plan (``Plan''). The Plan was developed in consultation with 
the Nuclear Energy Institute (NEI), which represents uranium mining, 
conversion, and enrichment industries as well as electric utilities. 
After the uranium mining, conversion, and enrichment industries 
negotiated a compromise with the electric utilities on the question of 
DOE's excess uranium transfers, NEI made recommendations to DOE for 
inclusion into its Plan.
    Specifically, DOE agreed to gradually release its excess uranium 
inventories into the market over a period of five years, at which point 
DOE agreed to limit annual uranium transfers to 5 million pounds or 10 
percent of annual domestic fuel requirements. DOE's collaborative 
approach to disposing of its excess uranium inventories was the 
principal reason the uranium mining, conversion, and enrichment 
industries and electric utilities supported the Plan.
    If confirmed, will you commit to bringing together the uranium 
mining, conversion, and enrichment industries as well as electric 
utilities and restart formal discussions to develop an excess uranium 
management plan which will be supported by these stakeholders?
    Answer. It is my view that the Department should be open to 
receiving input from affected stakeholders. If confirmed, I will work 
to ensure that as future Excess Uranium Inventory Management Plans are 
developed, the Department has the opportunity to hear from affected 
stakeholders, including those you mention.
    Question 8. A. If confirmed, will you commit to updating the 
Committee on a regular basis about the status of the cleanup of the 
Portsmouth Gaseous Diffusion Plant? B. How much money has DOE spent to 
date on the cleanup efforts at this site? C. How much money does DOE 
estimate the remaining cleanup will cost, assuming all of the remaining 
work is funded with appropriated dollars, in fiscal years 2015, 2016, 
2017 and 2018.
    Answer. A. If confirmed, I will update the Committee as requested 
about the status of the Portsmouth Gaseous Diffusion Plant.
    B. I understand that the Department has spent approximately $3 
billion through the end of FY2013 on the cleanup of the Portsmouth 
site.
    C. I understand that the FY2015 budget request for Portsmouth is 
$160 million, which is approximately $24 million above the FY2014 
appropriation of $135.8 million. As I am not yet at the Department, I 
do not have details on the estimated cost of cleanup for fiscal years 
2016-2018.
    Question 9. I understand DOE has entered into contracts with other 
parties to transfer uranium in exchange for cleanup services at the 
Portsmouth Gaseous Diffusion Plant.
    A. When was the most recent contract signed and what period of time 
does it cover?
    Answer. I understand from the Department of Energy that Flour-B&W 
Portsmouth was awarded a contract in August 2010, which covers 10 
years.
    B. Do the contracts include any language that would render them 
null and void should the Secretary make a finding that any additional 
uranium transfers would have an adverse material impact on America's 
uranium mining, conversion, and enrichment industries?
    Answer. As I am not yet at the Department, I do not have access to 
the details of the contract in question. If confirmed, I will be 
briefed on the relevant provisions.
       Responses of Elizabeth Sherwood-Randall to Questions From 
                             Senator Scott
    Question 1. Will abandoning the MO<INF>X</INF> project break the 
Plutonium Management and Disposition Agreement (PMDA) with Russia?
    Answer. The PMDA contains provisions to adjust plutonium 
disposition technologies if both parties agree. Therefore if a 
disposition pathway other than MO<INF>X</INF> were pursued by the 
Administration, the United States and Russia would need to agree to the 
alternate pathway pursuant to the Plutonium Management and Disposition 
Agreement.
    Question 2. If the Obama administration abandons the MO<INF>X</INF> 
project and pursues one of DOE's alternatives to plutonium disposition 
as identified in the April 2014 Plutonium Disposition Working Group 
Report, will a renegotiation of the PMDA be required by the U.S. and 
Russia?
    Answer. The PMDA contains provisions to adjust plutonium 
disposition technologies if both parties agree. Therefore if a 
disposition pathway other than MO<INF>X</INF> were pursued by the 
Administration, the United States and Russia would need to agree to the 
alternate pathway pursuant to the Plutonium Management and Disposition 
Agreement.
    Question 3. As part of the PMDA, the United States has committed to 
fund part of Russia's disposition program that includes fast reactors 
and an international inspection program. To date how much money has the 
U.S. spent on the Russian program?
    Answer. I have been briefed that to date the United States has 
allocated approximately $260 million in support of the Russia plutonium 
disposition program. The U.S. funding commitment to Russia's plutonium 
disposition efforts is primarily for activities relating to bilateral 
or IAEA confirmation of Russian adherence to the terms of the PMDA. 
Russia is funding the construction and operation of the major 
facilities required for its plutonium disposition program.
    Question 4. If the Obama administration abandons MO<INF>X</INF> and 
breaks the PMDA, Russia will no longer be bound to PMDA required 
inspections. Is it possible for Russia to use their fast reactors to 
produce more weapons grade plutonium?
    Answer. As I stated in my confirmation hearing testimony on July 
24, 2014, the United States remains fully and firmly committed to the 
Plutonium Management and Disposition Agreement with Russia.
    Question 5. Considering your current position as Special Assistant 
to the President and White House Coordinator for Defense Policy, 
Countering Weapons of Mass Destruction, and Arms Control, as well as 
previous positions in the administration, what countries does the Obama 
administration consider potential buyers of Russian weapons grade 
plutonium now or in the future? How many of these countries does the 
U.S. consider State Sponsors of Terrorism?
    Answer. I am not currently aware of any potential buyers for 
Russian plutonium or any Russian plans to sell plutonium.
    Question 6. What steps is the Administration taking to ensure 
continued inspections of Russia's fast reactors if the PMDA is broken?
    Answer. As I stated in my confirmation hearing testimony on July 
24, 2014, the United States remains fully and firmly committed to the 
Plutonium Management and Disposition Agreement with Russia. Absent the 
PMDA, there are no constraints on Russia's operation of its fast 
reactors.
    Question 7. At your confirmation hearing on July 24, 2014, you 
said:

          We are fully committed to meeting the obligations we have 
        under the agreement [PMDA] with Russia.''

    How does this statement rectify with the Administration's intent to 
break the PMDA by significantly reducing funding in the President's FY 
14 and FY 15 budgets, commissioning a study for alternatives to 
MO<INF>X</INF> and by placing the MO<INF>X</INF> project on ``cold 
standby?''
    Answer. The Administration is fully committed to disposing of 34 
tons of excess weapons grade plutonium as agreed to under the PMDA. The 
Administration is currently evaluating options to achieve this goal in 
the most cost effective manner possible, including disposing of 
plutonium as mixed oxide (MO<INF>X</INF>) fuel. As I understand it, the 
Department has been working closely with 33 the MO<INF>X</INF> project 
contractor to determine if there are opportunities to make the current 
MO<INF>X</INF> fuel approach for plutonium disposition more efficient 
in light of significant cost growth and funding challenges. The 
Department is currently reviewing execution plans for FY-15 work 
submitted from the MO<INF>X</INF> contractor with various funding 
levels and will determine the best path forward. These steps do not 
contravene our commitments under the PMDA.
    Question 8. At your confirmation hearing on July 24, 2014, you 
said:

          We should not take any steps that diminish the likelihood of 
        Russia fulfilling its obligations [to PMDA].''

    Hasn't the Administration already taken steps that would diminish 
the likelihood of Russia fulfilling its obligations? In your opinion, 
how many of the following would qualify as one of these ``steps''?

          1. Abandoning MO<INF>X</INF> project
          2. Placing MO<INF>X</INF> in cold standby
          3. Significantly reducing the President's budget requests for 
        MO<INF>X</INF> construction
          4. Commissioning a report to seek alternatives to the 
        MO<INF>X</INF> project

    Answer. As I stated in my confirmation hearing testimony on July 
24, 2014, the United States remains fully and firmly committed to 
ensuring Russia fulfills its obligations to the PMDA. As part of that 
commitment, the Administration will continue to carefully manage its 
approach to meeting U.S. plutonium disposition requirements to ensure 
that Russia continues to uphold its obligations under the PMDA. We have 
briefed Russia regularly on the status and plans for U.S. plutonium 
disposition.
    Question 9. At your confirmation hearing on July 24, 2014, you 
said:

                  ``If there is funding for this project 
                [MO<INF>X</INF>] that is sustainable over time, this is 
                our preferred solution.''

    Can I take this statement to mean that the Administration will 
include full funding-at least $500 million--for the MO<INF>X</INF> 
project in the President's FY16 budget so that Congress can meet the 
President's budget request?
    Answer. The President's FY 2015 budget request stated that the 
MO<INF>X</INF> facility would be placed in cold standby beginning in 
March 2014 while the Department further evaluates plutonium disposition 
options. However, as I understand it, when the Department of Energy 
participated in hearings and briefed members of Congress and on the 
details of the budget request, members from both parties expressed 
their strong desire that the Department defer placing the 
MO<INF>X</INF> project in cold standby while Congress reviews and 
evaluates the FY 2015 budget request. In response, the Department did 
not initiate a transition to cold standby in FY 2014 while Congress is 
deliberating the FY 2015 budget. The previous fiscal year's budget and 
appropriations process will be taken into consideration in the 
development of the subsequent fiscal year's budget request.
    Question 10. How does the ongoing crisis in Ukraine complicate a 
potential renegotiation of the PMDA with Russia?
    Answer. As I stated in my confirmation hearing on July 24, 2014, 
the Administration has made a deliberate effort to insulate nuclear 
security cooperation with Russia from turbulence in other aspects of 
the U.S.-Russian relationship, as it is in our vital national security 
interest to ensure that weapons-grade materials do not fall into the 
wrong hands.
    Question 11. Considering Russia's current disregard for 
international law and the sovereignty of Ukraine and given the Obama 
administrations intentions to place the MO<INF>X</INF> project on cold 
standby, what specific assurances do you have that Russia will not 
break the PMDA?
    Answer. The Administration is committed to doing everything that it 
can to ensure that Russia upholds its obligations under the U.S.-Russia 
PMDA to dispose of excess weapons grade plutonium. This is a vital 
national interest of the United States.
         Responses of Elizabeth Sherwood-Randall to Questions 
                          From Senator Hoeven
    Question 1. The Department of Energy has invested more than $15 
million in technology development in North Dakota that has achieved 
remarkable success in developing proprietary silicon based 
technologies, including the only economically feasible and scalable 
pathway to liquid silicon (hydrosilanes) materials that is seen as a 
potentially disruptive technology for the solar cell, printed 
electronics, and lightweight battery markets. This program is scheduled 
to end in June of 2015. In addition, this program has also developed 
promising `green' technologies, also based on silicon, for processible 
high refractive index polymers with strong potential to impact markets 
based on light emitting diodes, lithography and image sensors. The 
underlying technology is proprietary and available only in the USA. 
Does the DOE plan to extend and expand this program and to be a partner 
in the efforts to scale up and commercialize the process?
    Answer. The Department of Energy plays a critical role in 
supporting research and partnering in efforts to scale up and 
commercialize breakthrough energy technologies. I am not yet familiar 
with the specifics of the liquid silicon (hydrosilanes) materials, but 
if confirmed, I look forward to learning more about this technology and 
exploring what more can be done to assist this effort.
    Question 2. The Department of Energy has invested more than $10 
million to foster the initiation and growth of a Center for 
Computationally Assisted Science and Technology in North Dakota that 
focuses on energy related issues in the Upper Midwest. The center meets 
the needs of hundreds of faculty, students and researchers in their 
efforts to understand the complex water, soil, coal, gas and oil issues 
confronting the Upper Midwest, especially North Dakota Does the 
Department of Energy plan to assist in bringing that center to 
maturity?
    Answer. I am aware that promoting the advancement of computational 
science is an important mission of the Department. If confirmed, I look 
forward to learning more about the work of this Center and to exploring 
what more can be done to support its efforts.
        Response of Elizabeth Sherwood-Randall to Question From 
                  Senators Wyden, Risch, and Cantwell
    Question 1. Two of the bedrock principles for power in the 
Northwest are that the Bonneville Power Administration must continue to 
govern its own affairs, and that it has direct access to the top levels 
at the Department of Energy. Historically this means that BPA reports 
directly the Deputy Secretary. Earlier actions by this Administration 
called into question its support for the regional autonomy of BPA, but 
I've been encouraged by Secretary Moniz' response in light of the issue 
with hiring veterans at BPA, and the clear trajectory that DOE and BPA 
are now on to return full control back to BPA as that issue has been 
resolved.
    a) In your new capacity, will you commit that, before proposing any 
legislative or administrative actions which could affect the power and 
transmission operations of BPA, you will first discuss and vet those 
ideas with me and my colleagues from the Pacific Northwest and a broad 
range of regional stakeholders?
    Answer. If confirmed, I commit to working collaboratively with the 
three of you, other members of Congress, and regional BPA stakeholders 
on any major actions impacting BPA.
    b) Will you commit to continuing to have BPA and the other power 
marketing authorities report directly to you as Deputy Secretary?
    Answer. I understand that all Power Marketing Administrations 
currently report directly to the Deputy Secretary. It is my 
understanding that Secretary Moniz intends to continue this reporting 
arrangement if I am confirmed.

                                    

      

</pre></body></html>
